  AUDIT OF THE UNITED STATES 

MARSHALS SERVICE'S PROCUREMENT 

              ACTIVITIES 



       u.s.  Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 13-05 

            December 2012 

    AUDIT OF THE UNITED STATES MARSHALS SERVICE’S


               PROCUREMENT ACTIVITIES



                           EXECUTIVE SUMMARY




      The United States Marshals Service (USMS) purchases products and
services to conduct its mission through various procurement actions. Such
procurement actions include micro-purchases less than $3,000, simplified
acquisitions of $150,000 or less, and major contracts greater than
$150,000. According to its records, the USMS made purchases of about
$430 million in FY 2010, $592 million in FY 2011, and $415 million in
FY 2012 through May 2012.

      The USMS’s procurement actions are made at various levels
throughout the USMS. The USMS’s 94 district offices have delegated
procurement authority of at least $25,000, with some up to $100,000. The
USMS’s 12 division offices also have separate procurement operations. Five
of the 12 division offices have unlimited procurement authority and the
remaining division offices have limited procurement authority of at least
$100,000. The USMS Procurement Office in the Financial Services Division is
responsible for the centralized procurement of national supplies and services
including district office and division requirements that exceed the
procurement authority in the districts and divisions. The USMS’s
procurement actions are governed by the Federal Acquisition Regulation
(FAR), the Justice Acquisition Regulation, and internal USMS policies and
procedures.

      The objectives of this audit were to determine whether: (1) the USMS
complies with the FAR, Department of Justice (DOJ) policies, and internal
USMS policies in its award and administration of procurement actions;
(2) USMS internal controls ensure adequate oversight of procurement
actions; and (3) the USMS ensures that procurement requirements are met
and contractor billings are accurate and complete.

       Our audit work at the USMS Headquarters Procurement Office, other
division offices, and two district offices identified problems in the USMS’s
practices for:

         approval of purchases,

         certification of availability of funds,
      		 obtaining receiving reports for items purchased,

      		 maintaining receipts for fleet card purchases,

      		 justification for non-competitive procurements,

      		 monthly purchase card and fleet card reconciliations,

      		 purchase of firearms,

      		 payment of hotel cancellation fees for cancelled conferences,

      		 use of vehicles assigned to staff and primarily used to commute to
          and from their assigned office,

      		 recording accountable property in the property inventory system,
          and

      		 consolidation of multiple small purchases with similar requirements
          into fewer large purchases.

       Most of the problems resulted from insufficient training for contracting
personnel and ineffective management and inspection of USMS procurement
activities.

      We conclude that the: (1) USMS has not fully complied with the FAR,
DOJ policies, and internal USMS policies in its award and administration of
procurement actions; (2) USMS’s internal controls are not fully effective at
ensuring adequate oversight of procurement actions; and (3) USMS’s
management of vendor purchases did not ensure vendor billings are
accurate. To help improve the USMS’s procedures and controls over its
procurement activities, we made 12 recommendations including
re-emphasizing the policies and procedures that must be followed;
developing a tracking system to monitor the training completion of all
procurement staff; and establishing a process in the USMS’s Office of
Inspection - Compliance Review for following up on issues identified during
the office’s reviews.




                                       ii
                                TABLE OF CONTENTS



                                                                                               Page

INTRODUCTION ..........................................................................         1


        Audit Objectives and Scope ....................................................         2

        Prior Office of the Inspector General Audits ..............................             3


FINDINGS AND RECOMMENDATIONS...........................................                         5


        COMPLIANCE WITH PROCUREMENT POLICIES


         AND PROCEDURES .............................................................           5


        Policies and Procedures Not Followed .......................................            5

          Advance Approval of Purchases and Certification of 

             Availability of Funds ........................................................     6

          Receiving Documents .........................................................        11 

          Justifications for Non-competitive Awards ..............................             14 

          Monthly Purchase Card and Fleet Card Statement


             Reconciliations................................................................   18 

          Unauthorized Firearms Purchase ..........................................            19 

          Conference Lodging ............................................................      20 

          Fleet Vehicle Purchases .......................................................      23 

          Accountable Property..........................................................       25 

          Strategic Sourcing..............................................................     26 


        Factors Contributing to Procurement Weaknesses ...................... 27 

          Insufficient Training ........................................................... 27 

          Ineffective Management and Inspection of Procurement 

            Activities ........................................................................ 33 


        Conclusion ........................................................................... 40 


        Recommendations ................................................................ 41 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ... 44



APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY . 45



APPENDIX II – MAP OF USMS DISTRICT OFFICES........................ 48



APPENDIX III – USMS ORGANIZATION CHART ............................ 49 


APPENDIX IV – USMS RESPONSE TO THE DRAFT AUDIT REPORT . 50


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

 AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

 REPORT .................................................................................... 57 

                                  INTRODUCTION


      In accomplishing its mission, the United States Marshals Service
(USMS) purchases products and services through various types of
procurement actions. Procurement actions may include acquisitions under
the micro-purchase threshold ($3,000 for products, $2,500 for services),
purchases under the simplified acquisition threshold of $150,000, or major
purchases greater than $150,000. According to records provided by the
USMS, it made purchases of about $430 million in FY 2010, $592 million in
FY 2011, and $415 million in FY 2012 through May 2012. The USMS made
455,000 purchases totaling more than $521 million during the audit period
covering October 1, 2009, through March 31, 2011.

       The USMS’s procurement actions are made at various levels
throughout the USMS. The USMS’s 94 district offices have delegated
procurement authority of at least $25,000, with some up to $100,000,
depending upon the training and certification level of the district
procurement officials. A map showing the USMS’s 94 district offices is
included as Appendix II. The USMS also has 12 division offices (shown in
Appendix III), each with separate procurement operations. Five of the 12
division offices have unlimited procurement authority and the remaining
division offices have procurement authority of at least $100,000.1 The
USMS Procurement Office in the Financial Services Division is responsible for
the centralized procurement of national supplies and services, including
district office and division requirements that exceed the procurement
authority of the districts and divisions.

       The USMS uses the Government Purchase Card as the primary means
of making micro-purchases, while purchase orders and contracts are used
for larger procurements.2 The Government Purchase Card also may be used
to pay invoices for purchases above the micro-purchase threshold when the
vendor accepts the card for payment. However, these purchases must be
made using the appropriate purchasing procedures contained in the Federal
Acquisition Regulation and by a procurement official having the appropriate
level of procurement authority to make the purchase.

       1
          The five divisions with unlimited procurement authority are the Judicial Security
Division, Asset Forfeiture Division, Information Technology Division, Witness Security
Division, and the Justice Prisoner and Alien Transportation System.
       2
         The Government Purchase Card is a purchase card, similar in nature to a
commercial credit card, issued to authorized agency personnel and used to acquire and pay
for supplies and services.
                                              1

     From October 1, 2009, through March 31, 2011, the USMS made
135,390 purchases using purchase cards totaling about $81.9 million and
312,430 purchases using fleet cards totaling about $15.5 million. More than
98 percent of USMS purchase transactions were paid for using a government
purchase card or a fleet card, which is used for fuel and related services for
USMS vehicles; yet these transactions make up only 19 percent of the USMS
purchase amounts.

Audit Objectives and Scope

      The objectives of our audit were to determine whether: (1) the USMS
complies with the Federal Acquisition Regulation (FAR), Department of
Justice (DOJ) policies, and internal USMS policies in its award and
administration of procurement actions; (2) USMS internal controls ensure
adequate oversight of procurement actions; and (3) the USMS ensures that
procurement requirements were met and contractor billings were accurate
and complete.

      We performed audit work in the following USMS offices.

         Financial Services Division, Procurement Office

         Training Division

         Prisoner Operations Division

         Witness Security Division

         Investigative Operations Division

         Office of Inspection

         Office of Public Affairs

         Middle District of Florida

         Northern District of Georgia

      To answer the audit objectives, we reviewed the FAR, DOJ, and USMS
guidance on contracting, simplified acquisitions, micro-level purchases, and
the use of Government Purchase Cards. We identified the USMS’s controls
to ensure the procurement policies and procedures were followed. We
interviewed USMS procurement officials at various Headquarters and district

                                         2

level offices to determine the procedures actually followed for procurement
actions. We obtained data for the USMS’s procurement actions from
October 1, 2009, through March 31, 2011, and selected samples of the
procurement actions to test whether the appropriate policies and procedures
were followed when making the purchases. Finally, we interviewed USMS
officials regarding management and inspection to ensure procurement
actions comply with established policies and procedures.

      Details about our audit objectives, scope, and methodology for
evaluating USMS procurement actions are contained in Appendix I.

Prior Office of the Inspector General Audits

       In February 2004, the Office of the Inspector General (OIG) issued an
audit report on the USMS’s prisoner medical care.3 The USMS’s Office of
Program Review was responsible for performing reviews of district
operations, and the audit report found that this office had suspended such
reviews in April 2000 at the direction of the USMS Deputy Director. Prior to
the suspension of district reviews, Program Review staff conducted about 30
district reviews annually, allowing for reviews of each of the 94 districts
every 3 years. The suspension was initially intended to be a short-term
solution to critical staffing shortages in the field, which required that
Program Review staff be detailed to district offices in need of administrative
support. In the 3 years following the initial suspension of the district
reviews, the functioning of the Office of Program Review was unclear. The
staff was restricted to performing property management reviews and did so
only in response to special requests. According to USMS officials, reviews
remained suspended because the USMS planned to reorganize its internal
review function.

      Given the pervasiveness of the internal control weaknesses
encountered at the district level during the 2004 audit, the audit report
noted that it was difficult to justify the effective dismantling of the USMS’s
internal review function. The OIG recommended that the USMS
management reconsider its decision to suspend detailed district reviews.




       3
          U.S. Department of Justice Office of the Inspector General, United States Marshals
Service’s Prisoner Medical Care, Audit Report 04-14, (February 2004).

                                             3

      In November 2010, the OIG issued an audit report on the USMS’s
oversight of its judicial facilities security program.4 The audit found that the
USMS’s management of its court security officer contracts needed
improvement. The USMS’s Office of Security Contracts awarded a contract
worth about $300 million to a court security officer contractor with a history
of fraudulent activities. This contract was awarded despite a fraud alert
issued by the Department of Justice OIG. This OIG fraud alert was a written
communication informing the USMS that there had been multiple fraud
convictions and civil judgments against the contractor’s Chief Financial
Officer, including criminal convictions for mail fraud, submitting false
insurance claims, and bank fraud, as well as six fraud-related civil
judgments totaling more than $1.4 million. Ultimately, the contractor went
bankrupt, leaving many court security officers temporarily without payment
for their services.




       4
          U.S. Department of Justice Office of the Inspector General, United States Marshals
Service’s Oversight of Its Judicial Facilities Security Program, Audit Report 11-02,
(November 2010).
                                             4

              FINDINGS AND RECOMMENDATIONS

      COMPLIANCE WITH PROCUREMENT POLICIES AND
      PROCEDURES

      The USMS did not fully comply with the FAR, DOJ policies, or
      internal USMS policies in its award and administration of
      procurement actions. We found procurement officials did not
      always maintain appropriate and necessary documentation in
      acquisition files to support purchases made in the USMS District
      and Headquarters Division offices we reviewed. Specifically,
      about 20 percent of the procurement requests we reviewed did
      not reflect the required advance approvals and about 17 percent
      did not reflect the required certifications that funds were
      available to make the purchase. The acquisition files for about
      31 percent of the purchases we reviewed did not include
      receiving documents. Procurement files did not always include
      justifications for sole source awards or limited competition. In
      addition to these recurring weaknesses, we noted isolated
      instances of weaknesses that, while not systemic, reflected a
      lack of effective oversight. The problems we identified resulted
      from: (1) inadequate training of contracting personnel making
      purchases, and (2) ineffective management and inspection of
      USMS procurement activities. As a result, the USMS’s
      management of vendors was not effective to ensure
      procurement requirements were met in the most economical
      manner and vendor billings were accurate.

Policies and Procedures Not Followed

      As authorized by the Federal Acquisition Regulation, the USMS makes
extensive use of government purchase cards for micro-purchases and other
payments. The USMS also issues government fleet cards for use by
operators of official government vehicles to purchase fuel and related
services, parts, towing, and minor repairs in amounts not exceeding $1,000,
as approved by local management.

      From October 1, 2009, through March 31, 2011, the USMS made
135,390 purchases using purchase cards totaling about $81.9 million and
312,430 purchases using fleet cards totaling about $15.5 million. We
judgmentally selected procurement files for 307 purchase card transactions
and 331 fleet card purchase transactions. The transactions we selected
consisted of 409 purchase and fleet card transactions in USMS district offices
                                      5

and 229 purchase and fleet card transactions in USMS Headquarters
divisions. As discussed in the following sections, our review of these
transactions found incomplete support in procurement files for purchase
request approvals, certifications of fund availability, receiving
documentation, and justifications for non-competitive awards.5 USMS policy
requires that procurement officials maintain complete, accurate, and up-to-
date records to support purchase activity.

Advance Approval of Purchases and Certification of Availability of Funds

       As shown in Exhibit 1, we reviewed a sample of 638 purchase
transactions at various USMS Headquarters and district offices and found
that 125 purchase transactions (20 percent), valued at more than $230,000,
were made without the appropriate advance approval for the purchase or
certification of availability of funds. USMS Policy Directive 6.2, Acquisition
Processing, requires that prior to each purchase an authorized approving
official must approve the purchase request and an authorized certifying
official must certify that funds are available to make the purchase. The
purchase request is formalized in the Requisition for Supplies (Form USM-
157). In this report, the term “purchase request” is used to refer to the
Form USM-157.




       5
          The discussion of policies and procedures that follows proceeds by type of problem
identified. Some individual transactions exhibit more than one problem and are counted as
deficient in multiple sections.

                                             6

           EXHIBIT 1: Advance Purchase Approvals and Certifications
                            of Fund Availability

                                                                     Transactions Questioned for Lack of
                                         Transactions
                                                                      ApPl'"Opriate Advance Approval or
                                          Reviewed
                                                                       Certification of Available Funds
   USMS Office         Payment                                                                      Dollar
    Reviewed           Method       Number        Dollar Value      Approvals     Certifications    Value
                       Pu rchase                                         19              5        $ 220,688
                                          129        $864 , 520                                   . ( 26%)
                         Card                                         (15%)           (4 %)
Training Division
                                                                                                    (~::)
                                                                         2               2
                       Fleet Card          12              $7 17
                                                                      ( 17%)         ( 17% )
Investigative
                       Purchase                                          14             14         $3 ,8 4 7
Operations                                 47        $311 , 827
                         Card                                         ( 30%)         ( 30%)         ( 1% )
Division
P..-isonel'"
                       Pu rchase
Operations                                 18              $90 1        0               0            $0
                         Card
Division
Witness Security       Pu rchase                                        1                 1        $1 ,000
                                           14         $ 4 0, 685
Division                 Card                                         (7% )           ( 7 %)        (2% )
Office of Public       Pu rchase
                                            9         $ 10 , 50 1       0               0            $0
Affairs                  Card
                       Purchase
Middle District of                         46         $ 69, 028         0               0            $0
                         Card
Florida
                       Fleet Card          56           $3,080          0               0            $0
                       Pu rchase
                                           44         $87, 253          0               0            $0
Northern District        Card
of Georgia                                                              89              89         $4 ,7 16
                       Fleet Card        263          $30, 70 1
                                                                      (34 %)         ( 3 4 %)      ( 15%)
  Totals                                 638      $ 1 , 419, 213     <:,25,)         c:"~)        $ ~30,~~9
                                                                      20"10           17 %          16"10
Source. OI G t esting of USMS transactIOn files


           Training Div ision

           In t he Tra inin g Di v ision, fiv e purchase ca rd purchases and two fl eet
  ca rd purchases we re m ade witho ut ev idence of adva nce approva l and
  certifica ti o n of ava ilability of fu nds. In additi on, for 14 purchase ca rd
  transactions for firea rm s tota ling $ 183,885, the adva nce approva l by the
  Training Div ision was m ade usin g a rubber-sta mp sig nature. Th e Training
  Di v ision is responsible for purchasin g firea rm s for all USMS distri ct and
  di v ision offices . The Ass ista nt Director of the Tra ining Di v ision is th e
  designat ed approv ing offi cial for all US MS firea rm s purchases . Requisitions
  submitted by a distri ct offi ce require approva l by th e di stri ct Chief Deputy ,
  but must also be approved by t he Assista nt Director of t he Tra ining Di v ision
  o r his designee. The Ass ista nt Director delega t ed the approva l authority t o
  the Deputy Ass ist ant Director of the Training Di v ision , w hose signature was
  sta m ped. The 14 proc urement requests for firea rm s did co ntain sig ned
  distri ct office approva ls. How eve r, a rubber signature st amp co uld be used

                                                       7
by someone other than the designated approving official. While we found no
evidence to show the designated approving official did not review these
purchases, we believe the use of a rubber stamp by the Training Division
does not provide the assurance of an actual review and approval by the
designated approving official, and is therefore inappropriate.

       After we brought this matter to the attention of Training Division
officials, the officials told us that they stopped the practice of using rubber
stamps to indicate approvals for purchases. In October 2012, Training
Division officials told us that the division is complying with USMS Policy
Directive 6.2, Acquisition Processing, which requires signatures of the
appropriate approving official. Because the USMS policy does not specify
that rubber stamp signatures are not acceptable, and because the USMS
policy was not followed for some transactions we reviewed, we believe it is
essential that the USMS instruct all approving and certifying officials that the
use of rubber stamp signatures is not appropriate.

      Investigative Operations Division

       In the Investigative Operations Division’s Technical Operations Group,
we found 14 purchases for which the purchase cardholder did not submit
individual purchase requests for purchases. For 13 of these purchases, the
cardholder had received “blanket” approval from the Approving Official to
make small purchases under $1,000 without preparing a purchase request
and without identifying the item to be purchased. Because individual
purchase requests were not prepared, the cardholder did not have a
certification regarding availability of funds for each purchase. USMS policy
requires that all procurement actions include an approved and certified
Requisition for Supplies (Form USM-157). Without identification of the item
to be purchased, the Approving Official cannot meet the requirement to
make an informed approval of the purchase. We believe that unspecified
obligations and payments through the use of blanket pre-approvals violate
the requirement to justify the need for specific purchases and circumvent
the requirement for advance approval of even low-dollar purchases.

      The USMS’s Purchase Card Coordinator is assigned to the Procurement
Office and is responsible for management and oversight of the agency
Purchase Card Program. We asked the Purchase Card Coordinator about the
use of blanket approvals. She told us the Technical Operations Group, in the
Investigative Operations Division, manages the purchase card approval
process by creating an annual Requisition for Supplies (Form USM-157) for
each cardholder that establishes a limit of $1,000 for single purchases, a
monthly budget limit, and an annual limit that may not be exceeded without

                                       8

prior approval. The Requisition for Supplies is then certified by the
Administrative Officer and approved by the Chief of Technical Operations
Group. All purchases over $1,000 must receive prior approval with a
separate requisition before making the purchase.

       The Purchase Card Coordinator provided us a February 7, 2006,
memorandum for the file that documented the justification for the blanket
approval for the Technical Operations Group. The memorandum explained
that the Technical Operations Group is in a unique position with 53
cardholders assigned to 19 offices throughout the country, with no USMS
administrative positions in any of the field and regional offices to process
and fund certify the requisitions. The memorandum also indicated that
purchases by group cardholders are primarily made by criminal investigators
in group field offices and regional technical operations centers for items
necessary to carry out fugitive apprehension activities. The memorandum
concluded that because of the unpredictable nature of the work, large
volume of purchases under $1,000, and lack of personnel to certify the
availability of funds, it is virtually impossible to complete a requisition and
receive approval for each individual item needed. However, the
memorandum did not indicate who approved this exception to policy or
identify the authority upon which the exception rested.

      For the 13 purchases that we identified that were made under the
blanket approval, we do not believe the circumstances warranted use of the
alternate procurement procedures. The 13 purchase card transactions that
we questioned included 12 purchases of instrument supplies, music, and
uniforms to support the Pipes and Drums unit of the Investigative
Operations Division during performances at funerals and other special
events. These transactions were not for unpredictable needs in the field and
did not support criminal investigations conducted outside of normal working
hours and on weekends and holidays. The other purchase was a transaction
of more than $53 for pizza that the purchase cardholder told us was
probably for division staff during an after-hours meeting. According to the
Government Accountability Office’s Principles of Federal Appropriations Law,
appropriated funds are not available to pay for food for government
employees at their official duty stations.

       We agree that some situations may require alternate procurement
procedures. However, we believe that if such an exception is needed, it
should be established as a formal policy exception, approved at the same
level of management that approved the relevant policy, and should be
specifically limited to items that are necessary when exigent circumstances
do not permit a standard approval process.

                                       9

       We also found one purchase in May 2010 for a warehouse club
membership for $45 made by a cardholder in the Investigative Operations
Division that was made without approval and without the required
certification of availability of funds. The cardholder completed the purchase
request and sent it to USMS Headquarters for approval, but did not
document confirmation of approval and certification before making the
purchase. We reviewed subsequent purchase card bills through
February 11, 2012, and did not identify any purchases or a membership
renewal at the warehouse club.6

      Witness Security Division

       In the Witness Security Division, we found one purchase card
transaction that did not appear to have an appropriate approval. The
cardholder made payments totaling $1,000 to a pre-paid account at a local
engraving shop to establish a credit balance that could be used for quick
access when ordering awards. USMS policy requires that all procurement
actions include an approved Requisition for Supplies (Form USM-157)
identifying the items or services to be purchased. While the cardholder had
an approved Requisition for Supplies for establishing the credit balance with
the vendor, we believe the approval was inappropriate because the
requisition did not identify the items to be purchased. Without identification
of the items to be purchased, the approving official cannot make an
informed approval of the purchase. In addition, unspecified obligations and
payments through the use of pre-paid lines of credit are contrary to the
requirement that specific purchases be justified and approved.

      We asked the USMS Purchase Card Coordinator about the use of pre-
paid accounts with vendors. The Coordinator agreed that this practice was
not acceptable and is not in compliance with USMS policy. The Coordinator
stated that no payment should be made prior to receipt of the product or
service purchased.

      Northern District of Georgia

       In the Northern District of Georgia, we found 89 fleet card purchase
transactions for goods and services such as minor automotive repairs, oil
changes, and car washes that were made without a Requisition for Supplies
(Form USM-157) documenting advance approval for the purchase. District
officials told us that this issue was identified in a prior review by the USMS’s
Financial Services Division. District officials said that as a result of the

      6
       We did not attempt to determine whether the cardholder used the warehouse club
membership for personal use.
                                         10 

review, they changed the local practices to comply with USMS policy
requiring a Requisition for Supplies with the required advance approval for
all fleet purchases other than fuel or emergency maintenance. In addition,
the Chief Deputy initiated a new procedure at the end of August 2010
curtailing all expenditures for car washes. As a result of these actions, we
found only one instance of a car wash purchase after October 1, 2010, in
February 2011.

      In October 2012, USMS officials told us that implementation of the
new Unified Financial Management System will correct the problems we
found regarding the lack of approvals and certification of availability of
funds. The USMS began using the system in October 2012.

Receiving Documents

       USMS Policy Directive 5.2, Payments of Obligations, provides the
standards that must be met before payments may be made against
obligations. The policy requires that prior to making a payment, goods and
services must be received, accepted, and documented as such.7 As shown
in Exhibit 2, we reviewed a sample of 638 purchase transactions at various
USMS Headquarters and district offices and found that 200 purchase
transactions (31 percent), valued at more than $1 million, were paid for
without first obtaining a receiving report to confirm that the items had been
received. If receiving documents are not maintained, the USMS has little
assurance that all the items purchased were received and that the contractor
billings are accurate and complete.




       7
         For purchases made with a credit card, the credit card is used to make the
payment to the merchant, often before the goods or services are received. However, the
USMS Purchase Card Manual requires that before the monthly credit card bill is paid, the
USMS should ensure that the goods or services on the credit card bill were received,
accepted, and documented.
                                            11 

                                EXHIBIT 2: Receiving Documents

                                                Transactions Reviewed        Transactions Questioned

                                                                                Not
                                                                             Supported
                                 Payment                       Dollar       by Receiving     Dollar
  USMS Office Reviewed           Method         Number         Value        Documents        Value
                                                                                101         $643,414
                              Pu rchase Ca rd        129       $864, 520                    . ( 74% )
Training Division                                                             ( 78%)
                                Fleet Card              12         $717           0            $0
 Investigative Operations                                                         42        $301 ,893
                              Pu rchase Ca rd           47     $311 , 827                   . (97% )
 Division                                                                      ( 8 9 %)
 Prisoner Operations
                              Purchase Card             18         $901           0            $0
 Division
                                                                                  3          $1 , 579
 Witness Security Division    Pu rchase Ca rd           14      $ 40, 685
                                                                               (21 %)         (4% )
 Office of Public Affairs     Purchase Card              9      $10, 501           0           $0
                                                                                  16        $42 ,704
                              Pu rchase Ca rd           46      $69, 028
                                                                               ( 35%)       ( 62% )
 Middle District of Florida
                                                                                   8          $438
                                Fleet Card              56       $3,080
                                                                               114%1         " 4% 1
                                                                                   1        $ 11 , 214
                              Pu rchase Ca rd           44      $87, 253
 Northern District of                                                           ( 2%)       ( 13% )
 Georgia                                                                          29         $1,632
                                Fleet Card           263        $30, 701                     "5% 1
                                                                               111%1
   Totals                                           .38      $1,419,213       (:o~)        $liOO\~74
                                                                               31%            71%
Source. OIG testing of USMS transactIOn files


            Training Division

         Of the 129 Training Division purchase card transactions we sampled
  for firearms, lodging, and various supplies and services, the support for 101
  purchases (78 percent) did not include receiving documents. Specifically,
  we found that the procurement files for 38 firearms purchases valued at
  $536,910 did not include receiving documents to verify receipt of the
  firearms prior to payment. A Training Division official told us that orders are
  placed with a vendor and that when the vendor notifies the Training Division
  the order is ready to ship, payment is made using the purchase card. Most
  of the firearms are shipped directly to the requesting district or other USMS
  office instead of being shipped to the Training Division. Contrary to USMS
  policy, the Training Division Contracting Officer does not require the
  receiving office to send him the receiving reports so he can verify receipt of
  the firearms before paying the monthly credit card bill. The Training Division
  official told us he relies on the district office to complain if the order is
  incomplete or does not arrive. However, we noted that some purchases
  were delivered more than 1 year after the original request from the district
  with no evidence of any correspondence with the district office during that
                                                   12
time. Under such circumstances, we believe the risk is high that the district
could lose track of scheduled shipments and may not know when to
complain about undelivered firearms.

       Training Division officials told us in February 2012 that the Contracting
Officer is now required to provide delivery schedules to the requesting
district and to require the districts to report receipt of firearms prior to
vendor payment. According to the acting Deputy Assistant Director,
payment is not made until confirmation of receipt is verified.

       We also found that 38 Training Division purchases, totaling $41,800,
for long-term lodging arrangements for visiting class advisors were not
supported by evidence of receipt of the lodging. Payment for each of these
transactions was made based solely on an invoice from the lodging
establishment. The Training Division Contracting Officer did not require the
traveler to provide any voucher or other verification that the charges were
for valid incurred expenses before paying the invoice. We believe such
support is essential to ensure that payment is made only for lodging
received.

      For 25 other Training Division purchases, totaling $64,704 for various
supplies and services, the cardholder did not maintain a receiving report to
support payments made with the government purchase card. When we
discussed this issue with the Training Division contracting officer, he agreed
that receiving reports should be a part of the file but offered no explanation
for why the receiving reports were not in the files.

      Investigative Operations Division

       Of the 47 Investigative Operations Division purchases we sampled for
various supplies and services, the support for 42 purchases did not include
receiving documents. One cardholder made 18 purchases, totaling
$282,186, without maintaining any receiving documents. The 18 purchases
included 2 purchases for wireless communication devices totaling $192,000,
and 2 purchases for computer equipment totaling $56,925. Another
purchase cardholder made 24 purchases, totaling $19,707, without
maintaining receiving documents. The 24 purchases included the
previously-discussed 12 purchases for instrument supplies, uniforms, and
music to support the Pipes and Drums unit, and 1 purchase for pizza for
division staff during an after-hours meeting.




                                      13 

      Witness Security Division

      We found three Witness Security Division purchases for supplies and
meals for a training class, totaling $1,579, that were not supported by
receiving documents. The Contracting Officer did not know why the
receiving documents were not in the file.

      Middle District of Florida

       We identified 16 Middle District of Florida purchase card purchases,
totaling $42,704, for various supplies and services that were not supported
by a receiving document. The 16 purchases included 4 purchases of vehicle
light assemblies totaling $7,867, and 1 purchase of gym equipment totaling
$10,396. In addition, we found eight fleet card purchases totaling $438 that
were not supported by a receipt, or a verification form for the lost receipt, as
required. District officials did not provide a reason for the missing receiving
documents, but stated that they are now ensuring that receipts are
maintained.

      Northern District of Georgia

      We identified one Northern District of Georgia purchase card purchase
that was not fully supported by receiving documents. The purchase was for
various items of USMS apparel delivered in multiple shipments. The file was
missing the receiving document for 3 of 368 individual apparel items
purchased. The Contracting Officer told us she was unable to locate the
receiving document for the last three items. In addition, we found 29 fleet
card transactions that were not supported by a receipt, or a verification form
for the lost receipt, as required.

Justifications for Non-competitive Awards

      The Federal Acquisition Regulation, Part 6, requires that Contracting
Officers provide for full and open competition. The FAR provides seven
specific exceptions to the requirement for full and open competition and
requires documentation justifying the use of any of these exceptions. USMS
Policy Directive 6.2, Acquisition Processing, also requires the use of full and
open competition unless a sole-source justification has been approved.
FAR Part 8 and USMS Policy Directive 6.2 provide that Contracting Officers
should also attempt to distribute orders among contractors.

     The USMS’s Training Division often made purchase transactions
without full and open competition and without justification for the use of

                                      14 

  procedures other than full and open competition. For the 129 purchase card
  transactions that we reviewed , 50 were for supplies and services, 38 were
  for lodging expenses, and 41 were for firearms. As shown in Exhibit 3, we
  found that 91 of the 129 purchase transactions (71 percent), valued at more
  than $828,000, were made without full and open competition and without
  justification for the use of other procedures.

                   EXHIBIT 3: Justification for Non-competitive Awards

                                          Tl"ansactions Reviewed             Tl"ansactions Questioned

                                                                         No Justification fOI"
   USMS Office            Pl"oducts                          Dollal"      Non-competitive          Dollal"
    Reviewed             PUl"chased       Numbel"            Value             Awal"d              Value
                                                                                  12              $87,3 13
                           Supplies                50        $123,072                             'm %)
                                                                               ( 24%)
                                                                                  38              $41 , 800
Tl"aining Division         lodging                 38         $41,800
                                                                              (100% )             ( 100%)
                                                                                  41             $ 699,648


                                                                                                   ....
                           Firearms                41        $699 ,648                           '(100%)
                                                                              (100%)

   Totals                                         12.        $864,520
                                                                                  .1
                                                                              (71... )
                                                                                                 $~!28,~~1
Soul"ce. DIG testing of USMS t ransactIOn files

            Supply Purchases

         During the period of October 1, 2009, through March 31, 2011, the
  Training Division made 548 purchase card transactions totaling $2,578,850
  for supplies. We judgmentally selected for testing 50 of these transactions
  valued at $123,072. We found that the files for 12 of the 50 supply
  purchases did not indicate any competition in the selection of the vendor,
  and the files did not include a justification for sale source selection. Training
  Division officials did not offer any explanation for the missing
  documentation.

            Long-term Lodging Purchases

        During the period of October 1, 2009, through March 31, 2011, the
  Training Division made 117 purchase card transactions totaling $176,188 for
  long-term lodging arrangements for visiting class advisors. 8 We
  judgmentally selected for testing 101 of these transactions valued at
  $150,503 based on the merchant code for lodging and a vendor name that
  indicated resort properties. We reviewed the first 38 of these 101

         8 Visiting class adv isors I"eside in long-term lodg ing wh ile participating in tl"aining
  classes, which vary in length. The advisors general ly used the lodg ing fl"om 2 weeks to
  several months at a time.
                                                        15
transactions and determined that all 38 transactions were made to the same
vendor for the same purpose. We discussed these transactions with the
Contracting Officer who told us that all 101 transactions were made to the
same vendor for the same purpose using the same procedures. Therefore,
we limited our review to the 38 transactions reviewed, which totaled
$41,800.

       We found the Contracting Officer selected only one vendor for all of
the long-term lodging purchases we reviewed. The Contracting Officer did
not document any market research or provide a justification for other than
full and open competition, nor did he document any indication of an attempt
to distribute the orders among other available vendors at the time of
purchase. The Contracting Officer told us that at some time in the past he
checked prices of other local hotels by telephone inquiry and found the best
price. However, he retained no documentation of those calls showing the
vendors contacted and the prices quoted. After the original selection, he
continued to use the single vendor for future needs. We believe these
transactions should have been awarded based on competitive procedures.

      In addition, we found that no purchase orders were used to procure
these lodgings. Instead, the Contracting Officer processed a series of
acquisitions under the micro-purchase threshold based on purchase requests
and vendor billings. USMS policy prohibits splitting requirements into
multiple purchases in order to use the purchase charge card or to
circumvent the procurement regulations. Because of the repetitive need for
these services, we believe the Contracting Officer should have consolidated
these requirements and considered the establishment of a blanket purchase
agreement.

      Training Division officials told us in February 2012 that market
research in the local area has identified an additional vendor capable of
providing the long-term lodging needs at comparable pricing. The officials
stated that the USMS had begun to share the long-term lodging between the
two vendors and had documented the selection process. The officials also
told us the Training Division now uses the appropriate government forms for
agreements with the hotels. We did not verify these actions and believe that
USMS management should ensure that these actions have been taken.

     Firearms Purchases

      During the period of October 1, 2009, through March 31, 2011, the
Training Division made 163 purchase transactions for firearms totaling


                                     16 

$1,534,809. We judgmentally selected for testing 41 of these transactions
valued at $699,648.

       USMS Policy Directive 2.3, Firearms, requires that purchase requests
for firearms include:

      	 purpose or justification for the purchase,

      	 certification that funds are available,

      	 identification of the paying office,

      	 identification of the specific brand and model of firearm sought,

      	 quantity of firearms sought,

      	 complete delivery address,

      	 point of contact, and

      	 a statement that the district or division has checked with the USMS
         armorer and that no suitable excess USMS firearms are available.

      The policy prohibits processing a firearms purchase request until all of
the required documentation is complete. Specifically, we found:

      		 None of the 41 firearms purchases, valued at $699,648, that we
          reviewed were purchased using full and open competition and none
          were supported by a justification for sole-source selection. Instead
          of using full and open competition for the purchases, the
          Contracting Officer regularly used the vendor suggested by the
          requesting official without documenting any market analysis or
          determination of price reasonableness. The Contracting Officer for
          the Training Division told us that the purchases were made as
          orders against other agency contracts, but had no documentation to
          support that was the case. The purchase orders we reviewed did
          not identify the other contracts and did not reflect that the
          purchases were delivery orders against any other contracts.

      		 Thirty-seven of the 41 firearms purchases, valued at $642,330, did
          not include a statement that the requestor had confirmed that no
          excess firearms were available to meet the need. Thirty-three of


                                        17 

         these 37 firearms purchases, valued at $445,275, were not
         supported by a justification of the need for the firearms.

      In addition, USMS Policy Directive 6.2, Acquisition Processing, provides
guidance for making acquisitions under another agency’s established
contract and states that such procurements are subject to the competition
requirements of FAR Part 6 requiring the Contracting Officer to obtain
competitive bids or to provide justification for non-competitive procurement,
unless USMS requirements were included in the other agency’s requirements
as a part of the competitive process. The Contracting Officer did not provide
any documentation to show any other agency contracts included the USMS’s
requirements as part of the competitive process.

      Training Division officials told us that the USMS plans to conduct a
review of firearms purchases in general, including purchases related to open
contracts with other agencies.

Monthly Purchase Card and Fleet Card Statement Reconciliations

       The Justice Management Division’s Charge Card Management Plan
requires that purchase cardholders maintain complete, accurate, and up-to-
date records that support their purchase activity. Documentation may
include a funded and approved purchase request, purchase checklist,
packing slips, receiving documentation, monthly statements, and disputes.
According to USMS policy, the cardholders are required to verify, reconcile,
sign, and forward the monthly credit card Statement of Account, together
with relevant documentation, to the cardholder’s approving official within
5 days of receiving the statement. The cardholder’s reconciliation certifies
that goods or services were received and accepted prior to payment and
identifies the funding codes to be used for payment.

       We found that monthly purchase card statement reconciliations for 20
of the 88 Headquarters purchases we analyzed did not include
documentation of any review by an approving official. The value of the 20
purchases totaled $1,143. One cardholder told us the approving official
reviewed the reconciliations but did not sign the statement. We also found
that one cardholder was detailed to another agency and was unaware of the
identity of his approving official. That cardholder was also unaware of the
requirement to submit reconciliations of his monthly credit card statements
for review and approval. The USMS Purchase Card Coordinator told us that
identifying approving officials is a problem across the USMS and the
Procurement Office is trying to find a solution to correct this problem. The
coordinator said she had no tool for identifying approving officials or the
cardholders for whom approving officials are responsible. The coordinator
                                        18 

told us that the Procurement Office worked with district administrative
officers to identify existing approving officials, and as of September 10,
2012, had identified the approving officials for all USMS district offices.

       During the period October 1, 2009, through March 31, 2011, the
Middle District of Florida made 1,133 fleet card purchases totaling $54,889.
We selected 56 of these transactions valued at $3,080 for testing. We also
reviewed the district’s process for reconciling the monthly fleet card
statement to the fleet card receipts and found it to be inadequate. The
district official responsible for reconciling the statements transmitted the
individual statements to the person responsible for each vehicle and
requested receipts to verify the purchases shown on the statements. We
believe the process should require that the person assigned to each vehicle
submit receipts for verification of the statement without prior notice of the
transactions. Prior notice of transactions increases the risk that cardholders
could create receipts to support transactions.

Unauthorized Firearms Purchase

      USMS Policy Directive 2.3, Firearms, strictly prohibits the use of fully-
automatic firearms by the districts and divisions. An exception to this policy
is provided for the Special Operations Group, but only during specially
authorized missions. Firearms capable of burst-fire may be authorized at
the district level by the U.S. Marshal or Chief Deputy and for Headquarters
components by the Associate Director or Assistant Director.9

      We found one purchase order that, subsequent to the approval of the
original requisition, had been modified to convert a request for two semi-
automatic firearms with the capability for burst-fire into a request for
firearms capable of fully-automatic fire. There was no documentation of
subsequent approval for the modified purchase order. In this instance, the
original requestor was the Chief Inspector for a regional office of the Witness
Security Division. The original request for two firearms capable of 2-round
burst-fire was approved by the division’s Assistant Director. After the
requisition was submitted to the Training Division, the Chief Inspector sent
an e-mail to the Training Division Contracting Officer requesting a change
from the firearms requested to firearms capable of fully-automatic fire. The
       9
          Burst-fire capability is an intermediate firing mode between semi-automatic and
fully automatic. Semi-automatic mode allows the firearm to shoot a single round each time
the trigger is pulled until all the rounds loaded in the firearm have been fired. Fully-
automatic mode allows the firearm to continue to shoot all the rounds loaded in the firearm
with a single pull of the trigger until the trigger is released. Burst-fire mode allows the
firearm to shoot a pre-determined number of rounds (usually two or three) with each pull of
the trigger.
                                            19 

Contracting Officer made the change and ordered the fully-automatic
firearms from the vendor. The vendor’s government sales representative
identified the discrepancy and requested confirmation that the order was for
the correct firearm type, noting the USMS policy against fully-automatic
firearms. The procurement file contained no subsequent approval for the
change from either the original approving official or the Deputy Assistant
Director of the Training Division. The Contracting Officer noted in an e-mail
to the vendor that he confirmed the desired firearm type with the requestor
and verified the order. The purchase of firearms, especially firearms that
are specifically prohibited, without obtaining the required approvals, is a
serious internal control failure.

       After discussing this issue with Training Division officials, in June 2012
the officials told us that the two unauthorized firearms had been located and
secured. In October 2012, Training Division officials stated that actions had
been taken to convert the firearms to an appropriate trigger group that did
not allow fully-automatic fire. The Training Division officials also stated that
they had implemented a new internal process where both the armorer and
Deputy Assistant Director will review all firearms purchase requests. The
officials also told us that the purchasing officer will be instructed to not make
any changes to a purchase after it has gone through the approval process
and that any changes to an approved purchase must go through an internal
review prior to being made. We believe that senior USMS management
officials should ensure that these actions have been completed.

Conference Lodging

       As shown in Exhibit 4, we identified: (1) seven training conferences
for USMS employees scheduled from June 2010 through July 2011, of which
five were cancelled and two were held with fewer USMS employees attending
than estimated; and (2) one training conference that was rescheduled for a
later date. For four of the five cancelled conferences, the USMS Training
Division paid $79,570 in hotel cancellation fees. For the other cancelled
conference, the hotel waived the cancellation fee. For the two conferences
with fewer attendees than estimated, the Training Division paid $10,119 in
attrition fees because fewer hotel rooms were ultimately booked than agreed
to.




                                       20 

           EXHIBIT 4: Conference Cancellation and Attrition Fees

                Conference             Conference         Cancellation         Attrition
                 Scheduled              Cancelled             Fee                 Fee
           06/ 0 6/ 10 06/ 11/ 10                                                 $ 1,49 5
           06/ 28/ 10 0 7/ 0 1/ 10                                                $8,624
           10 0 3/ 10 - 10/ 08 10        09/ 09 / 10        $29770 *
           10/ 17/ 10 10/ 22/ 10         09/ 09/ 10          Waived
                                                             Non e.
                                                         Confere nce w as
           10/ 3 1/ 10 - 11/ 05/ 10    Reschedu led      resched uled for
                                                           11/ 14/ 10 ­
                                                            11/ 19/ 10
           0 5 15/ 11 05 2 1 11          04/ 0 5 11           16600
           06/ 12/ 11 06/ 18/ 11         04/ 0 5/ 11          16,600
           07/ 24/ 11 - 0 7/ 29/ 11      04/ 0 5/ 11          16,600
                    Totals                                   79570             $10119
          • Of t he $29,770, t he USMS recouped $29, 324 In th e f orm of hotel cred it s.
          Source: USMS Training Division re cords


        For the October 3, 2010, conference that incurred a $29,770
can cellati on fee , the hotel all ow ed the USMS t o reco up $ 29,324 through
credits f or subsequent training co nferences held in March 2011. The
remaining $446 was not reco uped. For the $49 ,800 in cancellation fees
incurred fo r the May through July 2011 co nferences, the hotel would not
all ow the USMS to recoup the fees again st future co nferences. Therefore ,
the USMS paid $50, 246 in can cellation fee s that were not recouped. The
USMS w as al so not all owed t o reco up the $10, 119 in attriti on fees incurred
f or the t wo conferences in June 2010.

        We further determined that a purcha se request was not prepared f or
an y of the co nferences. The Contracting Offi cer t old us that he did not
prepare purcha se request s f or the hotel cost s f or co nferences becau se the
indi v idual attendees w ere t o pa y the hotel cost s using their travel charge
card s a nd th ose tra vel cost s were t o be approved through the tra vel
auth orizati on process . Alth ough the Contracting Officer t old us that the
co nfere nce agreements were made using the hotel s' stand ard group sales
agreements, he co uld not prov ide co pie s of the hotel agreements signed fo r
the conferences scheduled in Oct ober and November 2010. However,
acco rding t o the USM S's Office of General Co unsel, the hotel agreements
should not have been used in pla ce of a w ritten USM S co ntract, such as an
Order f or Supplies or Serv ices ( OF 347 ) including the appropriate co ntract
clau ses as required by the FAR.

      We al so f ound that the Contracting Officer paid the $2 9 ,770
can cellati on fee before an approved purchase reque st , w ith an approved
                                                 21 

certification of availability of funds, was prepared. The $29,770 cancellation
fee was paid on September 16, 2010, but the creation and approval of the
purchase request, as well as the certification of availability of funds, was not
made until September 17, 2010. The Contracting Officer also paid the
$1,495 attrition fee before an approved purchase request, with an approved
certification of availability of funds, was prepared. The $1,495 attrition fee
was paid on June 7, 2010, but the purchase request was not created until
June 25, 2010, and was not approved until July 8, 2010. The fund
certification was also not made until July 8, 2010. The Contracting Officer
did not prepare an appropriate purchase request with the required approval
and certification of fund availability for the $8,624 attrition fee. The fee was
paid on July 9, 2010. The Contracting Officer made handwritten changes to
a May 10, 2010, purchase request for audio visual equipment for the
conference. However, the Contracting Officer did not record the date the
changes were made and did not have the changes approved and did not
obtain a new certification of fund availability. Paying cancellation and
attrition fees before obtaining certifications that funds are available to pay
those fees increases the risks that Anti-Deficiency Act violations might occur.

      In January 2011, the Training Division hired a new administrative
supervisor responsible for the procurement activities of the division. In
March and April 2011, the new supervisor was heavily involved in an attempt
to negotiate a waiver of cancellation fees for three conferences scheduled for
May, June, and July 2011. The hotel originally requested cancellation fees of
more than $58,000 for these conferences, but the new supervisor negotiated
the fee down to $49,800.

       The supervisor also noted that the hotel had reported the award of
reward points to the Contracting Officer for event planning related to similar
conferences. The USMS Office of General Counsel opined that the reward
points did not belong to the Contracting Officer. We asked the Contracting
Officer about the reward points and he denied any knowledge of having
received any reward points for arranging the hotel space, stating that he
was not eligible for the points since he was not the traveler. However,
documentation from the hotel shows that 100,000 reward points were
provided to the Contracting Officer for an earlier event. The USMS’s Office
of Inspection – Internal Affairs conducted an investigation and substantiated
the allegation. However, on September 30, 2012, prior to adjudication of
discipline, the Contracting Officer retired, resulting in closure of the
investigation against the Contracting Officer.

      Training Division officials told us that changes have been made
regarding how training conferences will be handled in the future. The
administrative supervisor told us that she has implemented a policy that no
                                        22 

conference agreements will be issued until receipt of proper allocation,
appropriations, and chain of command concurrence. She stated that in the
past, these agreements were entered into prematurely and often used
vendor paperwork instead of appropriate government purchase orders. She
further stated that the Training Division’s goal is to negotiate these
conferences within a reasonable timeframe to avoid or minimize the risk of
cancellations and attrition charges. In addition, she told us the Training
Division now uses the appropriate government forms and appropriate
contract clauses for agreements with the hotels.

Fleet Vehicle Purchases

      As of September 30, 2011, the Training Division had a fleet of 45
vehicles, including one GSA-leased vehicle. We found that 30 of the vehicles
were assigned to Deputy United States Marshals at the Training Division, 6
were vans used for transport on and around the Federal Law Enforcement
Training Center, 5 were maintained for use by visiting advisors, and 4 were
unassigned. Many of the Training Division’s vehicles were recently
purchased 2011 model vehicles.

      During our review, the USMS conducted an assessment of vehicle
usage and the Director of the USMS ordered more than 100 Headquarters
employees to return government-owned vehicles they were using to
commute to work. The purpose of fleet vehicles is to provide investigators
or supervisors a vehicle that they can use at any time to conduct
investigative or protective missions. The use of such vehicles should be rare
at the agency Headquarters because most of the Headquarters employees
are managers and office workers rather than case investigators or
supervisors of case investigators.

       The staff members at the Training Division are in non-investigative
positions similar to those at the Headquarters offices. We asked the Deputy
Assistant Director if the vehicles assigned to the Training Division were
essentially commuter vehicles for the staff and should be turned in
considering the ongoing assessment of vehicle usage. The Deputy Assistant
Director told us that the Training Division had not been included in the
assessment. However, subsequent to our review and as a part of the USMS
review and assessment of government vehicle assignment and utilization,
the Training Division conducted a study and proposed to the Management
Support Division a 35-percent reduction in the vehicle fleet, leaving 29
available vehicles on hand with only four assigned to Deputy United States
Marshals. The proposal justified the vehicles as essential for Training
Division support of the Florida Regional Fugitive Task Force, Southeast

                                     23 

Regional Fugitive Task Force, Technical Operations, and local district office
operations. The proposal noted that the Training Division remains available
for 24-hour operational response in support of these USMS operations. The
proposal also indicated the Training Division provides a source of immediate
response to federal detention and escape matters involving the Federal
Correctional Institution in Jesup, Georgia. The Training Division study
concluded that the assigned vehicles are necessary for compliance with
USMS policy that requires all USMS Deputies are properly equipped and
available for duty.

       The Training Division’s proposal established three categories for fleet
vehicles: Training, Motor Pool, and Leadership. The proposed vehicle
allocation included 11 vehicles in the training category and 18 vehicles in the
motor pool. No vehicles were allocated to the leadership category. A
Training Division official told us that vehicles needed for leadership support
would be met on an as-needed basis from vehicles assigned to the motor
pool. Such leadership support includes Duty Officer Response on a
rotational basis for the Training Division Duty Officer, Class Supervisors,
Advanced Class Supervisors, and a duty Branch Chief, as needed to support
of training activities. Vehicles deemed as “Training Vehicles” would support
Training Division training exercises, surveillance, other operational scenario
exercises, and classes taught at the academy. “Motor pool” vehicles would
support external training requests, other law enforcement agency initiatives,
employee training travel, and other activities as needed. The proposal
indicated these vehicles would be assigned out from the motor pool, in
support of each particular assignment and returned as required.

      We believe the Training Division’s proposal is sound in its approach to
eliminate unneeded vehicles and limit vehicles on-hand to those necessary
to meet mission requirements. After submitting the proposal to the
Management Support Division, the Training Division began implementing the
proposal in late 2011. According to Training Division officials, as of
August 28, 2012, the Training Division had completed its implementation of
the proposal, except for disposal of the vehicles to be excessed.

       In reviewing USMS procurement data in the Federal Procurement Data
System and associated documentation, we determined that in 2010 the
USMS also purchased four sport utility vehicles for $70,150 each, another
such vehicle for $69,000, and another such vehicle for $71,840. The
General Services Administration (GSA) is responsible for purchasing vehicles
for federal agencies, unless the federal agency is given statutory authority or
a waiver to make vehicle purchases. We interviewed the USMS Assistant
Chief for Fleet Management to determine the purpose and authority for

                                      24 

these purchases. The Assistant Chief told us that a waiver was obtained
from the GSA to purchase five of the six vehicles, and he provided us a copy
of the GSA waiver. The Assistant Chief told us he could not locate any
evidence showing that a GSA waiver was obtained for the vehicle purchased
for $71,840. However, the Assistant Chief confirmed that the vehicle
without a waiver was assigned to the Investigative Operations Division office
in San Diego and was being used for mission-related work. The USMS’s
Chief of Procurement confirmed that no documentation of a GSA waiver for
this vehicle could be found and that the contracting official who made the
purchase is no longer employed by the USMS. Unless the required waivers
are obtained to directly purchase vehicles, there is increased risk that the
vehicles purchased may not be justified or may not be obtained at the best
price.

Accountable Property

      USMS Policy Directive 7.1, Management of Personal Property, requires
accountable property be managed using a continuous record of
accountability. The policy requires that property be recorded in the Property
Management System at the time of its initial acquisition and that the
inventory record is maintained until final authorized disposal is complete.
The policy defines accountable property as non-expendable property with an
expected useful life of 1 year or longer that has an original acquisition value
of $1,000 or more, or has been specifically designated as accountable
property. In addition, regardless of original acquisition value, firearms and
automated data processing equipment having data storage capability are
accountable property. The policy requires classification and recording of the
property within 10 business days of receipt.

      We found accountable property items purchased on two purchase card
transactions in the Middle District of Florida valued at $9,914 that were not
recorded on the property inventory records. In one transaction, the District
purchased six Global Positioning System (GPS) units totaling $1,275 in
May 2010. In its March 2011 review, the USMS Office of Inspection, Office
of Compliance Review also identified that these six GPS units and six other
GPS units were not recorded in the property inventory system.10 In a
second transaction, the District purchased wireless video equipment totaling
$8,639 in September 2010. During our review in the District, the items from
these two purchase transactions had not been recorded on the property
inventory records. District officials told us there was some confusion about
whether the equipment was purchased for the District or for the Florida

      10
         In April 2012, the USMS’s Office of Inspection, Office of Compliance Review
became the Office of Inspection – Compliance Review.
                                           25 

Regional Task Force. Subsequent to our review at the District, a USMS
official told us the GPS units were determined to belong to the District and
the video equipment was determined to belong to the Task Force. Both the
GPS units and the video equipment were then recorded in the Property
Management System. Unless accountable property is recorded in the
property records in a timely manner after purchase, there is an increased
risk that the property could be lost or stolen without detection.

Strategic Sourcing

       In 2005, the Office of Management and Budget implemented an effort
toward strategic sourcing. Strategic sourcing is the collaborative and
structured process of critically analyzing an organization’s spending and
using this information to make business decisions about acquiring
commodities and services more effectively and efficiently. Agencies are
responsible for the development and implementation of a strategic sourcing
effort, which begins with an analysis of the spending and an identification of
commodities for which strategic sourcing should be implemented.

       We discussed strategic sourcing efforts with an official in the USMS
Procurement Office. The official told us the strategic sourcing emphasis for
purchase card activity has been to establish agreements with several
vendors for office supplies that could be purchased more effectively and
efficiently. She told us that the Procurement Office does not conduct a
spend analysis or coordination or consolidation of requirements for central
purchasing. She also told us the USMS has no established mechanism for
sharing strategic sourcing information with the districts for coordinating best
value decisions. In October 2012, USMS officials told us that other strategic
sourcing vehicles are used, such as agreements for wireless equipment and
services, General Services Administration leased vehicles, law enforcement
equipment, copiers, and express mail services.

       We found one purchase card transaction in the Middle District of
Florida for a high-end brand of sunglasses that we considered excessive.
The district purchased four pairs of range sunglasses that meet certain
safety and impact standards for $90 per pair. We found that other, less
expensive sunglasses are available that also meet the same safety and
impact standards as the range sunglasses. For example, we found that the
Training Division purchased another brand of range sunglasses for $56 per
pair that met the same safety standards as the sunglasses purchased in the
District. Because this purchase of sunglasses appeared to be expensive, we
analyzed the universe of all USMS purchases during October 1, 2009,
through March 31, 2011, and found that the USMS district and division

                                      26 

offices made 250 purchases totaling $116,804 from the manufacturer used
by the Middle District of Florida. That manufacturer sells sunglasses and
sunglass accessories and, consequently, some of these purchases may have
been for accessories and not sunglasses. Because we found that another
brand of similar sunglasses could be purchased for 38 percent less than the
brand purchased, significant savings may be available if the USMS were to
use strategic sourcing and require purchasing more moderately priced
sunglasses that meet the safety and impact standards. The Middle District
of Florida purchasing official told us that market research at the time
resulted in the purchase of the four sunglasses and that she did not have
access to the research conducted by other offices. However, because this
was a micro-purchase, the purchasing official did not maintain
documentation of the market research conducted.

Factors Contributing to Procurement Weaknesses

       We identified two major factors that contributed to the USMS’s
procurement weaknesses — insufficient training of USMS procurement
officials and ineffective management and inspection of procurement
activities. These causal factors are discussed in the following sections.

Insufficient Training

       The USMS Acquisition Career Management Handbook states that
effective October 1, 2007, contract personnel involved in procurements,
specifically contract specialists, purchasing agents, and Contracting Officers
making purchases above the micro-purchase threshold, must receive a
minimum of 80 hours of Continuous Learning Points every 2 years. The first
2-year period for the requirement began October 1, 2007. However, any
training completed after January 1, 2007, could be applied toward the
80 hours for the first 2-year cycle. The handbook also states that
Contracting Officer delegations of procurement authority and Federal
Acquisition Certification in Contracting will expire if the 80 hours are not
earned every 2 years.11 The USMS did not consistently meet the training
requirement.



       11
            The Federal Acquisition Certification in Contracting Program establishes the
minimum education, training, and experience requirements for contracting professionals in
civilian agencies. It was established by the Office of Federal Procurement Policy’s Policy
Letter 05-01; and Office of Management and Budget Memorandum, The Federal Acquisition
Certification in Contracting Program, dated January 20, 2006. The intent of the program is
to ensure that all contracting professionals throughout the government are properly trained
and qualified to effectively conduct the acquisition business of the government.
                                            27 

      Contracting Officer Training

       Training Division. We reviewed the training records for the
Contracting Officer at the Training Division and found that he had met the
80-hour training requirement for the FY 2008/FY 2009 training cycle. This
training requirement was newly established in FY 2008 and training from the
beginning of January 2007 was allowed to count for the FY 2008/FY 2009
training cycle. We found all but 10 hours of the Training Division
Contracting Officer’s training for the FY 2008/FY 2009 training cycle were
completed prior to October 1, 2007. The Training Division Contracting
Officer completed only 2 hours for the FY 2010/ FY 2011 training cycle, so
he did not meet the 80-hour training requirement for that cycle.
Consequently, the Contracting Officer had completed only 12 hours of
training during the 4 years covering FY 2008 through FY 2011.

       According to the administrative supervisor, the Contracting Officer’s
scheduled training in April 2011 was cancelled at the direction of the Deputy
Assistant Director as a result of the Attorney General guidance to suspend or
restrict non-essential training. She also told us the Procurement Office
informed the district and division offices that no warrants or certifications
would be suspended solely for failure to complete mandatory refresher
training. We believe the Contracting Officer’s lack of training contributed to
the numerous procurement concerns we found at the Training Division.

      Other Headquarters Divisions. Three of the six purchase cardholders
at the other Headquarters division offices we reviewed were also Contracting
Officers. We reviewed the training records for the three Contracting Officers
and found that two had met the 80-hour training requirement for the
FY 2008/FY 2009 training cycle. The third Contracting Officer did not have a
contracting warrant during FYs 2008 and 2009, and therefore did not have
to meet the training requirement for this period. However, only two of the
three Contracting Officers met the 80-hour training requirement for the
FY 2010/FY 2011 training cycle. The other Contracting Officer had only
completed 2 hours of the 80-hour training requirement for the
FY 2010/FY 2011 training cycle. The Contracting Officer did not provide an
explanation for not meeting the training requirements.

      Middle District of Florida. We reviewed the training records for the two
Contracting Officers in the Middle District of Florida and found that neither
met the 80-hour training requirement for the FY 2008/FY 2009 training
cycle. Both had completed only 24 hours of training. Despite not
completing the required 80 hours of training, the delegated procurement
authority for the two Contracting Officers was not revoked. We also found

                                     28 

that neither of the two Contracting Officers met the 80-hour training
requirement for the FY 2010/FY 2011 training cycle. One had completed
40 hours of training while the other had completed 38 hours. A district
official told us the training was not completed because of scheduling
conflicts. We believe the Contracting Officers’ lack of training contributed to
the procurement concerns we found at the district.

       Northern District of Georgia. We reviewed the training records for the
three Contracting Officers in the Northern District of Georgia and found that
only one of the three had met the 80-hour training requirement for the
FY 2008/FY 2009 training cycle. The other two had completed 75 hours and
66 hours, respectively. Despite not completing the required 80 hours of
training, the delegated procurement authority for the two Contracting
Officers was not revoked. In addition, none of the three Contracting Officers
met the 80-hour training requirement for the FY 2010/FY 2011 training
cycle; however, one Contracting Officer had completed 79 hours. The other
two Contracting Officers had completed 54 and 28 hours of training,
respectively. The Contracting Officer that received only 28 hours of training
subsequently cancelled her procurement warrant in anticipation of
retirement.

       Given that many of the Contracting Officers we reviewed did not meet
the 2-year training requirements, we asked the USMS’s Acquisition Career
Manager whether he tracked the training completion of USMS Contracting
Officers. The manager told us that he kept a file of training completion of
Contracting Officers but he did not have a consolidated mechanism for easily
identifying the training status of Contracting Officers. The file system
requires a manual review of each Contractor Officer’s file to determine the
status of their training. The manager told us that he was new to the position
and to identify Contracting Officers with training shortfalls he assigned a
contract employee to prepare a list of Contracting Officers through
inspection of the hard-copy files in the Procurement Office. In addition, the
manager told us he used each Contracting Officer’s date of contracting
warrant as the beginning date of the 2-year training cycle. As a result,
many of the USMS’s Contracting Officers were being tracked using different
2-year training cycles. We explained to the manager that the USMS
Acquisition Career Management Handbook established the beginning of the
first 2-year training cycle as October 1, 2007, and we asked the manager
why he did not use the same 2-year cycle for all Contracting Officers. The
manager told us that the Procurement Office does not follow the Handbook
and does not use the established training cycle date, but instead uses the
warrant date for each individual Contracting Officer. The manager said that


                                      29 

he has been in the position since July 2011 and the use of the individual
warrant dates was the practice when he arrived.

      The Acquisition Manager also told us that the Procurement Office relies
on each Contracting Officer to be aware of his or her own individual training
needs. In addition, the manager stated that he did not consider his training
status list to be completely reliable because the Contracting Officers do not
always provide copies of their training certificates.

      The manager provided us with his records for tracking training
completion for USMS Contracting Officers. As shown in Exhibit 5, the
records showed that less than 20 percent of the USMS's Contracting Officers
had met their training requirements as of September 30,2011, the end date
for the 2010/1011 training cycle.

                EXHIBIT 5: USMS Contracting Officer Training
                         as of September 30,2011

                                         Training           Training
                                      Requirements       Requirements
                                          Met              Not Met         Totals
          Number of
                                             58                237              295
          Contracting Officers
          Percentage of
                                           19.7%             80.3%          100%
          ContractinQ Officers
         Source..   OIG Review of USMS Procurement Office Records of Training


      We did not validate the training data provided by the USMS's
Acquisition Career Manager, but the data was consistent with our results for
the Contracting Officers in the USMS offices we reviewed. Overall, for the
nine Contracting Officers that we tested, only two (22.2 percent) had met
the training requirements as of September 30, 2011.

       For the 237 Contracting Officers whose training files did not show
training requirements had been met, 147 had no documented training since
FY 2009. These 147 Contracting Officers accounted for almost 50 percent of
the USMS's 295 Contracting Officers, as shown in Exhibit 6.




                                             30 

                        EXHIBIT 6: USMS Contracting Officer Training 

                                  Time Since Last Training 

                                 as of September 30,2011 


                                                                           Cumulative
                                            Number of     Percentage of   Percentage of
                                            Contracting    Contracting    Contracting
            Trainino Status                  Officers       Officers       Officers
 Last   training   in   or before FY 2006      52              17.6%         17.6%
 Last   training   in   FY 2007                29               9.8%         27.5%
 Last   trainino   in   FY 2008                28               9.5%         36.9%
 Last   training   in   FY 2009                38              12.9%         49.8%
  Totals                                       147                           49.8%
Source: OIG Review of USMS Procurement Office Records of Training


       Ninety other Contracting Officers were not documented as meeting
training requirements. Of these, 52 had documentation for some training in
the FY 2010 through FY 2011 training cycle but they had apparently not met
the required 80 hours. For 38 Contracting Officers, the Procurement Office
had no training records and consequently could not show that these
Contracting Officers had met the training requirements.

       We also asked the Acquisition Career Manager about the Acquisition
Career Management Handbook requirement for termination of procurement
authority and Federal Acquisition Certifications in Contracting when training
requirements are not met. The Acquisition Career Manager told us that the
USMS relies heavily on the on-line courses available through the Defense
Acquisition Unive rsity. The manager stated that during the period of July
through November 2011 the university website was not available for training
courses while the system was being repaired after experiencing a cyber­
attack. The manager told us that he informed USMS Contracting Officers
they did not need to complete the training while the university system was
unavailable. Because of this restriction on access to training with the
university, the manager decided not to revoke warrants for delinquent
training. In March 2012, the manager sent an e-mail to all the USMS
Contracting Officers informing them of the need to catch up on their training
in a reasonable time once the university system was again available. We
believe that the USMS Contracting Officers should have ensured they met
the 2-year training requirement regardless of whether the university system
was available.

       After we discussed the training concerns with the Acquisition Career
Manager, the Financial Services Division issued guidance in May, June, and
July 2012 to USMS staff: ( 1) clarifying that the current 2-year training cycle
for all procurement officials is October 1, 2011, through September 3D,
                                              31
2013; (2) requiring procurement officials to submit all training completion
certificates to his office; and (3) indicating that procurement officials who do
not complete the 80-hour training requirement within the training cycle will
have their procurement certifications and warrants terminated. We believe
this guidance, if followed, should help ensure that USMS procurement
officials receive the required training. In addition, in October 2012, USMS
officials told us that the USMS is working to ensure that all contract
professionals are registered in the Federal Acquisition Institute Training
Application System and that the contract professionals update the system
periodically with their training information.12

       Approving Official Training

      The Justice Management Division Charge Card Management Plan
requires that Approving Officials receive training prior to their appointment.
This training should include the same training required of cardholders.
Training certificates are to be maintained by the Approving Official and
copies are to be submitted to the Agency Program Coordinator who oversees
the Purchase Card Program for the USMS and establishes guidelines for
program users.

       The Procurement Office is responsible for reviewing and approving
applications for Approving Officials and for maintaining a central file of all
cardholder and Approving Official applications. We asked the Agency
Program Coordinator if she could identify the status of training for Approving
Officials in the USMS. The coordinator told us that identification of
Approving Officials is a problem across the USMS and the Procurement Office
is trying to find a solution. The coordinator stated that she had no way of
knowing who the Approving Officials are, how many there are, or the
cardholders assigned to each Approving Official for the purpose of approving
purchases. The coordinator told us that the Procurement Office worked with
district administrative officers to identify existing Approving Officials, and as
of September 10, 2012, had identified the Approving Officials for all USMS
district offices.

       The USMS Purchase Card Manual requires that Approving Officials view
the Approving Official Instructions and Ethics video and sign a training
requirement certification. We asked the Chief Deputy in the Middle District
of Florida and the Chief Deputy in the Northern District of Georgia what

       12
           The Federal Acquisition Institute Training Application System is a system for
federal civilian agency employees to electronically submit training applications and manage
their career development. The system also monitors and manages workforce certification
requirements.
                                            32 

training they had as Approving Officials. Neither was able to provide support
showing that he had viewed the Approving Official Instructions and Ethics
video or signed the training requirement certification. The Agency Program
Coordinator told us that the Approving Official video had been lost and she is
changing the requirements for training for Approving Officials. Approving
Officials will no longer be required to view the video. Instead, the
coordinator stated that she intends to require all Approving Officials to take
the cardholder training (General Services Administration Smartpay). The
coordinator also told us that the General Services Administration refresher
training for all cardholders and approving officials should be completed every
3 years and will be included in the new guidance.

Ineffective Management and Inspection of Procurement Activities

     We believe that the USMS’s decentralized management of
procurement and the ineffective inspections of procurement activities by the
USMS’s Office of Compliance Review also contributed to the procurement
weaknesses we found.

      Decentralized Management of Procurement

       The USMS’s procurement actions are made at various levels
throughout the organization. Each of the USMS’s 94 district offices has local
Contracting Officers with delegated procurement authority of at least
$25,000, with some up to $100,000. The USMS also has 12 division offices
with separate procurement operations. Five of the 12 division offices have
unlimited procurement authority and the remaining division offices have
procurement authority of $100,000 or more. The USMS Procurement Office
in the Financial Services Division is responsible for the centralized
procurement of national supplies and services including district office and
division requirements that exceed the procurement authority in the districts
and divisions. However, the USMS Procurement Office does not have central
procurement authority over the Contracting Officers in the division and
district offices.

       The former Procurement Chief told us that the organization for
acquisition officials in the USMS is not centralized under the Procurement
Office, and therefore he had no supervisory role over the procurement
officials in the division and district offices. USMS Policy Directive 6.1,
Procurement Authority and Oversight, and the USMS Acquisition Career
Management Handbook established the USMS Contracting Officer Warrant
Program. According to this policy, the Procurement Chief is responsible for
delegating Contracting Officer authority. The former Procurement Chief told

                                     33 

us his office assigned the warrant levels for all USMS Contracting Officers,
including those in the district offices and the other Headquarters divisions.
The former Procurement Chief said that while he signed certificates of
warrant authority and sent out letters of certification, the Headquarters
procurement office did not have direct supervisory authority over purchasing
officials in the district and other division offices to help ensure the purchases
were properly made.

      According to the former Procurement Chief, procurement activities in
the district offices operate independently from the Procurement Office for
micro-purchases and most simplified acquisitions. However, he told us that
purchases over the warrant authority of the Contracting Officer in the district
and division offices are processed through the Procurement Office. He also
told us that the Procurement Office reviewed all procurement actions of
$300,000 or more for the division Contracting Officers with the authority to
award larger contracts. The former Procurement Chief also told us that
procurement actions of $500,000 or more were forwarded to the legal office
for review.

       A USMS acquisition official told us that the Contracting Officers in the
district offices are generally administrative staff members performing the
procurement function as a collateral duty and are supervised by the Chief
Deputy in the district. We believe that the lack of a central authority for
Contracting Officers contributed to the numerous concerns we identified in
the district and division offices.

      During our review, the Deputy Director established a Procurement
Study Committee for the purpose of improving the USMS acquisition
processes and procedures. The plans for establishing this committee were
underway before we started the audit. The former Procurement Chief told
us that the USMS contracted with a nonprofit research organization to
perform a study on consolidating procurement activities. The purpose of the
study was to improve USMS acquisition processes and procedures while
maintaining compliance with applicable rules, regulations, and law. The
study report identified multiple impediments to the USMS’s procurement
operations including:

         lack of a central acquisition authority,

         lack of uniform procurement procedures,

         insufficient collaboration among procurement and program staff,


                                        34 

     		 insufficient knowledge, skills, and abilities among procurement
         staff,

     		 lack of Federal Acquisition Certification in Contracting for staff
         members,

     		 unfilled vacancies in the Headquarters Procurement Office, and

     		 lack of tools to manage and assess workload or performance.

      While our review did not address all of the areas covered by the draft
report, the study findings are consistent with what we observed. The draft
report also made multiple recommendations to remedy the procurement
impediments, including:

     		 establishing a unified reporting structure for all USMS acquisition
         professionals under a single acquisition organization;

     		 establishing a single portal for strategic sourcing information across
         all divisions and districts that contains information pertaining to the
         available agency-level contracts, other government-wide acquisition
         vehicles, or other law enforcement agency acquisition vehicles;

     		 implementing a policy requiring the use of strategic source options
         for certain items or services;

     		 educating personnel (especially Contracting Officers) on the
         importance of legal counsel’s role in the acquisition process;

     		 establishing a definitive database of active warrants, personnel, and
         completed training;

     		 examining the establishment of a mentor program to train and grow
         new staff members in the areas of acquisition, contracting, and
         program management;

     		 assigning all Headquarters Contracting Specialists to report to the
         Acquisition Executive, providing the Acquisition Executive with more
         options to provide consistent and accurate advice and guidance to
         divisions and districts;

     		 investigating the establishment of regional acquisition offices to
         serve the district’s acquisition needs; and

                                      35 

      		 clearly defining all acquisition functions for Contracting Officers and
          other acquisition-related roles.

       The USMS Procurement Chief stated that the study was lacking district
office perspective and only provided suggestions for headquarters functions.
In October 2012, the Procurement Chief told us that a contractor is
performing a study to gather information from the district office perspective
to help in developing a comprehensive approach to handling acquisitions
throughout the USMS. That study is planned for completion in FY 2013. We
believe the USMS should implement a comprehensive strategy for managing
USMS acquisitions across the organization using information gathered from
the procurement study completed in FY 2012, along with information
gathered during the district office study continuing in FY 2013.

      Reviews by the USMS’s Office of Inspection - Compliance Review

       As discussed previously, the procurement-related concerns we
identified are partly attributable to the lack of required training by USMS
personnel making the procurements and the lack of supervision of
contracting personnel by procurement officials. We also believe that the
concerns are partly attributable to lack of an effective inspection system by
the USMS’s Office of Inspection as discussed below.

       Previous OIG Audit. In a 2004 OIG audit report on the USMS’s
Prisoner Medical Care, the OIG found that the internal review function within
the USMS fell under the jurisdiction of the Management and Budget Division,
Office of Program Review. Organizationally, the Office of Program Review
consisted of an eastern office, located at USMS Headquarters; a central
office, located in Houston, Texas; and a western office, located in Denver,
Colorado. Historically, the Office of Program Review's primary area of
responsibility had been the performance of detailed reviews of district
operations. The reviews were comprehensive in scope and covered nearly
all aspects of district activity, including: (1) prisoner transport, (2) asset
forfeiture, (3) contract and Intergovernmental Agreement billings,
(4) judicial security, and (5) general management and administration. The
inspection reports, signed by the USMS Director, contained findings and
recommendations, and required a formal resolution process, documenting
that necessary corrective actions had been taken.

       The OIG report noted that on April 19, 2000, the USMS Deputy
Director issued a memorandum directing the Office of Program Review to
suspend its reviews of USMS district operations. Prior to the suspension of
district reviews, Office of Program Review staff conducted about 30 district

                                       36 

reviews annually, allowing for reviews of each of the 94 districts every
3 years. The action was defined as a short-term solution to critical staffing
shortages in the field, which required that Office of Program Review staff be
detailed to district offices in need of administrative support.

       In the 3 years following the initial suspension of these district reviews,
the Office of Program Review existed in an uncertain state. The staff was
restricted to performing property management reviews, and did so only on a
special request basis. Staffing levels at the eastern office had dropped from
six to two analysts. The staff assigned to the western office in Denver,
Colorado, had been reduced from six to four analysts, with staff detailed to
the Witness Security Program. The central office in Houston, Texas, was
closed.

       Given the pervasiveness of the internal control weaknesses at the
district level encountered throughout the 2004 audit, the audit report noted
that it was difficult to justify the effective dismantling of the USMS’s internal
review function. The OIG recommended that the USMS management
reconsider its decision to suspend detailed district reviews.

       Current OIG Audit. Seven years after the 2004 OIG audit, we found
that the program review function has not been effectively restarted. In
FY 2005, the USMS created the Office of Inspection that included an Office of
Internal Affairs and an Audit Office. The Audit Office resumed responsibility
for the reviews formerly performed by the Office of Program Review. In
FY 2007, the Audit Office was changed to the Office of Compliance Review.
An Office of Inspection official told us that compliance reviews of the district
offices have not been completed on a regular cycle since prior to 2003, and
some districts have not been reviewed since 1999.

       In 2007, the Office of Compliance Review modified the compliance
review process to strengthen the USMS’s internal controls. An official in the
Office of Inspection told us that the Office of Compliance Review began using
auxiliary team members in 2007. These USMS employees participate in
compliance reviews as a collateral duty in addition to their normal
assignments. During 2007, the Office of Compliance Review trained about
100 auxiliary staff to assist in compliance reviews.

      The Office of Compliance Review issues inspection reports outlining its
findings and requires district and division offices to take appropriate
corrective actions. Each district and division is also required to annually
complete a self-assessment guide and submit the completed self-assessment
to the Office of Compliance Review.

                                       37 

       The Office of Compliance Review performed 21 district compliance
reviews, out of 94 District Offices, from FY 2009 through FY 2011. During
FY 2009, the Office of Compliance Review conducted compliance reviews of
only 14 of the 94 District Offices. Funding shortages since 2009 have
hindered attempts to schedule reviews. In FY 2010, the Office of
Compliance Review reviewed the self-a ssessments of the district offices but
did not perform any compliance reviews of district offices. Instead, the
Office of Compliance Review developed a plan for reviewing Headquarters
division offices . During FY 2011, the Office of Compliance Review completed
compliance reviews of only seven district offices and conducted a review of
the Financial Services Division, including the Procurement Office. The 21
compliance reviews identified procurement deficiencies for the districts
reviewed. Our analysis of these reviews found that some deficiencies
identified appeared to be systemic, as demonstrated in Exhibit 7 .

               EXHIBIT 7: USMS Office of Compliance Review
            Most Common Deficiencies Identified in District Offices

                                                                              Number
                                                                                 of
                            Deficiency Identified                             Districts
   District did not maintain proper procurement files for each procurement       15
   District did not ensure District Security Officer procurement files were
                                                                                 15
   properly prepared
   District did not ensure compliance w ith the Prompt Payment Act               14
   District did not ro er1y record accountable roperty                           13
   District did not follow Certified Invoice Procedures                          10
   District did not accuratelv prepare purchase orders Form OF-3471              10
   District did not accurately prepare purchase re uests (Form USM-157)          9
   District had unauthorized commitments                                         9
   Invoices were not supported bv rece ivina reports                              6
   A list of certifying and disbursing officials was not provided to the
                                                                                 6
   Financia l Services Division as required
  Source: Office of Compliance Rev iew compliance review reports

      As previously noted, during FY 2010, the Office of Compliance Review
did not conduct district reviews but issued a summary report on its review of
the self-assessments submitted by the 94 district offices. The summary
report showed that the districts reported a 92 percent compliance rating.
However, based on our assessment of the reviews, a self-assigned
compliance rating of 92 percent may be overly optimistic.

      Also in FY 2011, the Office of Compliance Review conducted a review
of the Finan cia l Services Division, including the Procurement Office. We
analyzed the resulting report and found that it identified deficiencies similar
to those we found in the districts and other division offices, as shown in
                                            38
Exhibit 8. The Office of Compliance Review found higher frequency of errors
in the Financial Services Division than we found in the districts and other
divisions for some deficiencies, and lower frequency of errors than we found
for other deficiencies. In one instance, the frequency of errors found by the
Office of Compliance Review in the Financial Services Division was about the
same as we found in the districts and other divisions.

                    EXHIBIT 8: USMS Office of Compliance Review
                   Deficiencies Identified in the Procurement Office

                                                                     Files     Files with
                      Deficiency Identified                        Reviewed   Deficiencies
    The Procurement Office did not mai nta in cop ies of
    Contracting Officer Technical Representative certificates        100           9
    and Contractina Officer warrants
    Purchase re uest packages were missing documentation              20           B
    Purchase files did not include close-out stateme nts or
    rece iv inQ reports
                                                                      51          51
    Cardholder files did not include delegations of purchase
    authority
                                                                     130          111
    Cardho lder fi les did not contain General Services
    Adm in istration training certificates
                                                                     130          63
    Cardholder files did not contain Green purchase certificates     130          24
    Approving official files did not contain application forms
                                                                     130          130
I   (USM-40S)
  The Procurement Office did not track continuing education
                                                                      13           1
  of Contractinq Officers
  Purchase order forms ( USM-347) did not include the
                                                                      17           1
  oria inal sianature of Contractina Officers
  Purchase request forms (U5M-157) were prepared after
                                                                      30           3
I purchases were made
  Purchase request forms (USM-lS7) did not contain
                                                                      30           4
  sianatures
Source: Office of Compliance Review compliance review report

       Although the Office of Compliance Review identified deficiencies, it did
not have an effective system for following up to ensure the deficiencies were
corrected. Unlike the former Office of Program Review, the Office of
Compliance Review does not conduct any follow-up to ensure that district or
division corrective action plans are implemented and that identified
deficiencies were corrected. Instead, the Office of Compliance Review relies
on the districts or divisions to implement the corrective actions identified in
their corrective action plans. Confirmation of the corrective actions does not
take place until the next full review of that office, which could be years later.

     We also found that the Office of Compliance Review does not base its
work plan on risk analyses or identification of top concerns by management.
                                               39
Instead, the work plan provides a rotation of reviews among district offices
based on the available staff and the elapsed time since the last review. The
FY 2012 work plan for the Office of Compliance Review called for a review of
seven district offices and one Headquarters division. During FY 2012, the
Office of Compliance Review was granted resources for reviewing 3
additional districts, bringing the total review plan for FY 2012 to
1 Headquarters division office and 10 district offices. Based on this level of
resources, it would take about 10 years or more to review all 12 division
offices and 94 district offices. In October 2012, the Assistant Director for
Inspection told us that the Office of Inspection has created and is
implementing a plan that will result in a 4-year review cycle beginning in
FY 2013. The Assistant Director told us that the Office of Inspection-
Compliance Review has 18 reviews scheduled for FY 2013 and plans to
increase its efforts beginning with FY 2014 to 27 reviews each year with
follow-up, achieving the level necessary to meet a 4-year cycle. The
Assistant Director said that this plan has been briefed to and approved by
the Director, and that it has been included in the USMS Strategic Plan. The
Assistant Director also said that the Auxiliary Compliance Review Team has
been expanded to include more subject matter experts to help meet the
4-year cycle requirement intended by the USMS Director. However, the
Assistant Director stated that full implementation of this plan is subject to
the availability of funds.

Conclusion

       The USMS has established policies and procedures for the proper
award and administration of procurement actions. However, we found that
the USMS has not ensured that district and division procurement officials
comply with the Federal Acquisition Regulation, Department of Justice
policies, or internal USMS policies. We found that procurement officials did
not always maintain appropriate and necessary documentation in acquisition
files to support purchases made in the district and division offices we
reviewed. The non-compliance problems we found result from insufficient
controls to ensure: (1) adequate training of contracting personnel making
purchases, and (2) effective management and inspection of USMS
procurement activities. Consequently, the USMS did not fully ensure that
procurement requirements were economically met and vendor billings were
accurate.




                                      40 

Recommendations

     We recommend that the USMS:

1. 	 Re-emphasize to all USMS procurement staff the policies and procedures
     that must be followed in the areas of:

        advance approval of purchases,

        certification of availability of funds,

        maintenance of receiving documents,

        justification for non-competitive awards,

        reconciliation of monthly purchase card and fleet card statements,

        recording accountable property purchased in the property records,
         and 


        strategic sourcing. 


2. 	 Strengthen the oversight of procurement training by:

     		 developing a tracking system to monitor the training completion of
         all procurement staff including Contracting Officers, purchase and
         fleet cardholders, and approving officials; and

     		 establishing procedures to ensure that procurement staff complete
         all required training, and to ensure all procurement related training
         is reported for inclusion in the training tracking system.

3. 	 Strengthen the inspection system over procurement activities by the
     Office of Inspection - Compliance Review by:

     		 ensuring a shorter and consistent cycle for reviewing procurement
         operations in the district and division offices;

     		 ensuring the work plan for performing compliance reviews considers
         the risks of non-compliance, as well as top management concerns,
         to focus review resources; and



                                        41 

      		 establishing a process in the Office of Inspection - Compliance
          Review for following up on deficiencies identified during its reviews
          to ensure that corrective actions are implemented to resolve the
          deficiencies.

4. 	 Strengthen the process for approving and certifying procurement
     requests by:

      		 instructing approving and certifying officials that the use of rubber
          stamps for signatures for documenting approvals and certifications
          is not appropriate; and

      		 clarifying the appropriate use of any blanket approvals for
          investigators in remote locations, working on weekends and
          holidays with immediate needs.

5. 	 Clarify the requirement for specific identification of the items to be
     purchased and the impropriety of establishing pre-paid accounts with
     vendors for ease of future purchases.

6. 	 Establish policy on the proper methods and procedures for contracting
     with hotels for conferences and training facilities to include the use of
     the proper forms, adequate procurement planning to minimize
     cancellation and attrition fees, and the use of required Federal
     Acquisition Regulation clauses regarding terminations and contingencies.

7. 	 Ensure that the requirements for long-term lodging for visiting class
     advisors are consolidated where practical and that the requirements are
     competed among qualified vendors.

8. 	 Strengthen the process for purchasing firearms by:

    		 establishing a policy for communicating delivery schedules for
        firearms purchases with the districts that ordered the firearms and a
        requirement for the districts to provide evidence of receipt of the
        firearms to the procurement official;

    		 ensuring that the new firearms purchase approval procedures
        planned by the Training Division are formalized in a written policy;
        and

    		 re-emphasizing to appropriate USMS procurement officials the USMS
        policy requirements for justifying the purchase of new firearms,

                                      42 

       proper review of available excess firearms within the USMS prior to
       purchases of new firearms, proper approvals for the purchase of
       firearms, and adequate competition in the procurement of firearms.

9. 	 Ensure that the two fully-automatic firearms purchased in violation of
     USMS policy have been converted to an appropriate trigger group that
     does not allow fully-automatic fire.

10. Strengthen the process for ensuring that USMS vehicles are needed and
    used to meet mission requirements by:

     		 monitoring the Training Division implementation of fleet reduction
         activities to ensure that vehicles that are not needed to meet
         mission requirements are disposed of; and

     		 establishing procedures to ensure that vehicle purchases made
         directly by the USMS instead of through the General Services
         Administration are supported by waivers from the General Services
         Administration.

11. Develop a strategic sourcing information exchange identifying agency
    excess supplies, best value sources, agency blanket purchase
    agreements, and other government-wide strategic sourcing options
    available for use by procurement officials.

12. Implement a comprehensive strategy for managing USMS acquisitions
    across the organization using information gathered from the
    procurement study completed in FY 2012, along with information
    gathered during the district office study continuing in FY 2013.




                                     43 

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS 


      As required by the Government Auditing Standards, we tested the
USMS’s processes, controls, and records to obtain reasonable assurance that
the USMS complied with laws and regulations that, if not complied with,
could have a material effect on the USMS’s ability to properly purchase
goods and services. Compliance with laws and regulations applicable to the
USMS’s procurement activities is the responsibility of USMS management.
An audit includes examining, on a test basis, evidence about compliance
with laws and regulations. The specific laws and regulations we reviewed
included the Federal Acquisition Regulation and Justice Acquisition
Regulation.

      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, the USMS complied with the laws
and regulations cited above. With respect to those activities not tested,
nothing came to our attention that caused us to believe that the USMS was
not in compliance with the laws and regulations cited above.




                                     44 

                                                              APPENDIX I

      AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of this audit were to determine whether: (1) the USMS
complies with the Federal Acquisition Regulation (FAR), Department of
Justice (DOJ) policies, and internal United States Marshals Service (USMS)
policies in its award and administration of procurement actions;
(2) USMS internal controls ensure adequate oversight of procurement
actions; and (3) the USMS ensures procurement requirements are met and
contractor billings are accurate and complete. We conducted this
performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Our audit concentrated on, but
was not limited to, the period October 1, 2009, through October 12, 2012.

    We performed audit work at USMS Headquarters and the following
USMS Headquarters Division and District offices.

         Financial Services Division, Procurement Office

         Training Division

         Prisoner Operations Division

         Witness Security Division

         Investigative Operations Division

         Office of Inspection

         Office of Public Affairs

         Middle District of Florida

         Northern District of Georgia

     To answer the audit objectives, we reviewed the FAR, DOJ policies,
and USMS guidance on contracting, simplified acquisitions, micro-level
purchases and the use of Government Purchase Cards. We also identified
                                         45 

controls the USMS had in place to ensure the procurement policies were
followed. In addition, we:

     		 Interviewed USMS procurement officials about procedures for
         contracting, simplified acquisitions, micro-level purchases, and the
         use of Government Purchase Cards and Fleet Cards.

     		 Obtained the universe of procurement actions during the period
         October 1, 2009, through March 31, 2011, including those made
         with purchase cards and fleet cards.

     		 Selected a judgmental sample of procurement actions at two
         district offices and five division offices for testing to determine if the
         procurement policies were followed. The samples were selected to
         obtain a variety of transactions to include purchase card
         transactions, fleet card transactions, high-dollar transactions, low-
         dollar transactions, and potentially at-risk transactions. Because
         the sample was selected judgmentally, the results of the sample
         testing cannot be projected to the total universe of purchase
         transactions.

     		 Interviewed USMS Office of Inspection - Compliance Review staff
         about procedures for inspecting the procurement activity in division
         and district offices, the types of inspections, and how often
         inspections are conducted.

     		 Reviewed 21 inspection reports issued in FY 2009 and FY 2011 to
         identify procurement-related deficiencies and identify trends among
         the deficiencies identified.

     		 Interviewed procurement officials at the Middle District of Florida
         and the Northern District of Georgia to determine purchasing and
         documentation procedures, and reviewed a sample of purchase card
         and fleet card transactions at the two district offices.

     		 Interviewed procurement officials at the Training Division in
         Glynco, Georgia to determine purchasing and documentation
         procedures, and reviewed a sample of purchase card and fleet card
         transactions at the division.

     		 Interviewed procurement officials at other Headquarters division
         offices to determine purchasing and documentation procedures, and


                                       46 

        reviewed a sample of purchase card transactions at the division
        offices.

      During the preliminary stage of this audit, we obtained information
regarding the major contract actions exceeding $150,000. However, we did
not select any of these actions for testing during the audit.




                                    47 

                           APPENDIX II

MAP OF USMS DISTRICT OFFICES




             48 

                          APPENDIX III

USMS ORGANIZATION CHART




          49 

                                                                                                    APPENDIX IV

USMS RESPONSE TO THE DRAFT AUDIT REPORT



,....
 /~      .......                                             U.S. Dcp:lrtmcnt of .Justice
               .
          ~




'.~
         -
        ..... Z.
              ~
                                                             Un ited tates Marshals Service

                                                             ODice of the Assoc:iate Director/or Operatiolls


                                                             Ale.\'(mdr/II, Virginia   ]lJ(lI · I(}~5




                                                             Novcmber 30, 2012


MEMORANDUM TO:                         Raymond Beaudet
                                       Assistant Inspector General for Aud it
                                                         ,
                          FROM :        Steum • teilCl ls   5 2  >
                                      - Assoc iate DireclOr fo r Admini stration

                       SU BJ ECT:      Response to Draft Audit Report: Audit of the Uni ted States
                                       Marshals Service' s Procurement Activ iti es

        This memorandum is in response to co rrespondence from the Office oflhe Inspector
General requesting com ment on the rccommendai iollS associated with the subject draft audit
report. Please find attached o ur respo nse and co mment s.

       Thank you for the opporlllllity 10 comment . Should yo u have any questions or concern s
regarding tbis response, please contac t Isabel I-lowell. Audi t Liai son. at 202-307-9744.

Attachments

cc:           Lo ui se Duhamel
              Act ing Director, Audit Liaiso n Group
              Internal Review and Eval uati on Offi ce
              Justi cc Manage ment Di vision

                  Isabel 1·lowell
                  External Audit Li aison
                  United States Marshals Service




                                                       50 

                            USMS Response to OIG Draft Report
              Audit of the United States Marshals Service's Procurement Activities


Recommendation I: Re~emphasize to all USMS procurement staff the policies and
procedures that must be followed in the areas of:

       advance approval of purchases,
       certification of availability of funds.
       maintenance of receiving documents,
       justification for non-eompetitive awards,
       reconciliation of montbly purchase card and fleet card statements,
       recording accountable property purchased in the property records, and
       strategic sourcing,

Response (Concur): The Financial Services Division (FSD) is working to revise all Policy
Directives associated with procurement rules and guidelines for the USMS. In October 2012, the
Office of Procurement COOP) issued new Policy Directive 6.8, GSA SmartPay2 Commercial
Credit Card Program, which states, " ... failure to use the purchase card in accordance with the
policies contained herein or to reconcile purchase card charges will result in cancellation of the
card" (Attachment A). Moreover, training programs are being developed for implementation
during FY 2013 to emphasize these important issues and highlight other areas of concentration to
the procurement community to include small business procurements, procedures for appropriate
technical evaluations, etc. The integration of the Unified Financial Management System
(UFMS) will also go a long way to ensure that appropriate procurement procedures are being
followed.

Recommendation 2: Strengtben the oversight of procurement training by:

       developing a tracking system to monitor the training completion of all procurement
       staff including Contracting Officers, purchase and fleet cardholders, and approving
       officials; and

       establishing procedures to ensure that procurement staff complete all required
       training, and to ensure all procurement related training is reported for inclusion in
       the training tracking system.

Response (Concur): We agree that a strengthened training program is needed to ensure that all
USMS procurement officials are versed on the necessary requirements and procedures as defined
by USMS Policy Directives, Justice Acquisition Regulations (JAR), and Federal Acquisition
Regulations (FAR).

OOP has updated its previous monitoring system to track all procurement officials within the
USMS and their associated training. The system has been reviewed and updated, as needed to
ensure complete and accurate information. AI! contracting officers were contacted in September
2012 to verify their registration status in FAITAS (Federal Acquisition Institute Training




                                                51 

Application System). OOP has determined that there are currently a total of817 USMS FAITAS
registrants. OOP is also working to add new Contracting Officers and Contracting Officer's
Representatives (CORs) daily.

In terms of purchase and fleet cards, OOP has taken a proactive approach and has completely
vetted the review and assignment of Approving Onicials and purchase card holders. New
Approving Onidal (AO) assignment letters have been issued to all AOs and Policy Directive 6.8
(Attachment A) was implemented and disseminated to all USMS employees. The policy has
been updated and now specifies more stringent annual training requirements to help keep all
involved up-to-date on the requirements and appropriate management of the purchase and fleet
cards.

In the future, FAITAS will be tracking and providing automated reminders to registrants about
their training requirements, and agency Acquisition Career Managers will have user
searchllookup capability to provide assistance in managing the system. Until that time, OOP
continues to work on these issues. In May and June 2012, the Assistant Director, FSD, issued
guidance that outlined the requirement for all procurement officials to complete 80 hours of
continuing education no later than September 30,2013, and advised that warrants would be
revoked if the training was not completed. The memo established the recurring 2.year window
for training to then move forward as: 10/112013·9/30/2015,10/112015·9/30/2017, and so on
(Attachment B). OOP continues to periodically send out reminders to warrant holders of their
training requirements and due dates.

Recommendation 3: Strengthen the inspection system over procurement activities by the
Office of Inspection· Compliance Review by:

       ensuring a shorter and consistent cycle for reviewing procurement operations in the
       district and division offices;

       ensuring the work plan for performing compliance reviews considers the risks of
       non-compliance, as well as top management concerns, to focus review resources;
       and

       establishing a process in the Office of Inspection - Compliance Review for following
       up on deficiencies identified during its reviews to ensure that corrective actions are
       implemented to resolve the deficiencies.

Response (Concur): We agree that a strengthened inspection system over procurement activities
is needed. The USMS Onice ofInspection (01) has promulgated a plan to increase the number
ofinspections from 11 in FY 2012 to 18 in FY 2013 (Attachment C). Resources permitting, OI
plans to increase the number of inspections to 27 in FY 2014.

A streamlined and risk-based Compliance Review program will enable 01 to increase the
number of inspections. In order to develop these risk-based compliance reviews, 01 engaged the
services of Ernst and Young in FY 12 to conduct a risk assessment and make recommendations
to incorporate risk into the Compliance Review program. We also believe that this risk




                                              52 

assessment is essential to establish a follow up process and ensure that corrective action is
implemented in a timely manner after each review.

Recommendation 4: Strengthen the process for approving and certifying procurement
requests by:

       instructing approving and certifying officials that the use of rubber stamps for
       signatures for documenting approvals and certifications is not appropriate; and

       clarifying the appropriate use of any blanket approvals for investigators in remote
       locations, working on weekends and holidays with immediate needs.

Response (Concur): The practice of using "rubber stamps" has ceased. The implementation of
UFMS will ensure that the process for approving and certifying procurement requests is
completed appropriately. No specific actions are planned, as the practice has ceased and the new
procurement system does not allow it. Nonetheless, as the Policy Directives are updated and
finalized, strong language prohibiting the use of rubber stamps will be included, and will also be
highlighted on the OOP Share Point website.

With respect to simplified acquisitions (including purchase card transactions), FAR
13.101(b)(4) encourages the use of bulk funding to the maximum extent practicable. This
provides for lump sum funds to be reserved for a special purpose (such as Technical
Operations Group events) rather than obtaining individual obligational authority for each
purchase transaction. Clarification on the applicability and procedures for use of blanket
purchase card funding will be incorporated into the Policy Directive updates and training
materials to provide better guidance to the USMS procurement community, and will be
highlighted on the OOP Share Point site.

Recommendation 5: Clarify the requirement for specific identification of thc items to be
purchased and the impropriety of establishing pre~paid accounts with vendors for ease of
future purchases.

Response (Concur): Stronger guidance regarding the requirement for specific identification of
items to be purchased and the impropriety of establishing pre~paid accounts with vendors for
ease of future purchases will be incorporated into the Policy Directive updates and training
curriculum to be completed in FY 2013, and will be highlighted on the OOP Share Point site.

.Recommendation 6: Establish policy on the proper methods and procedures for
 contracting with hotels for conferences and training facilities to include the use of the
 proper forms, adequate procurement planning to minimize cancellation and attrition fees,
 and the use of required Federal Acquisition Regulation clauses regarding terminations and
 contingencies.

Response (Concur): In August 2012, the USMS Deputy Director issued implementation
guidance on DOJ Policy Statement 1400.01 entitled "Planning, Approving, Attending and
Reporting Conferences. II In September 2012, in conjunction with the Oftice of General Counsel,




                                                 53 

FSD issued a memorandum providing guidance on "no cost agreements" for lodging and use of
hotel planners (please see Attachments D and E, respectively). We will incorporate this
information into the Policy Directive updates and training curriculum in FY 2013, as well as
highlight it on the OOP Share Point website.

Recommendation 7: Ensure that the requirements for long-term lodging for visiting class
advisors are consolidated where practical and that the requirements are competed among
qualified vendors.

Response (Concur): The Training Academy (TD) is currently working with FSD to review
current procedures and practices. New internal controls are being developed to ensure
compliance with regulations and policy. TD has received guidance from FSD not to enter into
long-term housing contracts. Instead, travelers will be responsible for making their own travel
plans utilizing government travel cards in compliance with the Federal Travel Regulations.

Recommendation 8: Strengthen the process for purchasing firearms by:

       establishing a policy for communicating delivery schedules for firearms purchases
       with the districts that ordered the firearms and a requirement for the districts to
       provide evidence of receipt of the firearms to the procurement official;

       ensuring that the new firearms purchase approval procedures planned by the
       Training Division arc formalized in a written policy; and

       re-emphasizing to appropriate USMS procurement officials the USMS policy
       requirements for justifying the purchase of new firearms, proper review of available
       excess firearms within the USMS prior to purchases of new firearms, proper
       approvals for the purchase of firearms, and adequate competition in the
       procurement of firearms.

Response (Concur): TD has established internal controls to include a review process requiring
signatures from the agency armorer and Deputy Assistant Director, Training Division, for every
requested firearms purchase. Additionally, TD management has developed a tracking tool for all
current/pending purchases and reached out to individual offices to ensure proof of delivery/
receipt is provided to TD. Following meetings with FSD (as described below), these new
internal controls will be fonnalized into policy as appropriate.

TD and the Office of Procurement are working jointly to review current Agency-wide firearms
procurement practices to detennine the most effective way to manage this program in accordance
with applicable regulations. Procedures/guidance to ensure current Agency policy is adhered to
will be developed, as well as new guidance as necessary. Once guidance is developed as a result
of these reviews, it will be distributed Agency-wide. TD and FSD personnel will be meeting at
the Training Academy this month to further these discussions.




                                               54 

Recommendation 9: Ensure that the two full-automatic firearms purchased in violation of
USMS Policy have been converted to an appropriate trigger group that does not allow fully
automatic fire.

Response (Concur): The weapons were converted from fully automatic (0-1-2-5 selector
configuration) to the appropriate trigger group (0-1-2 selector configuration). (Please see
Attachment F, a June 2012 e-mail chain showing that the matter was being addressed, and
Attachment G, a photo of the converted weapons.) We respectfully request that OIG close this
recommendation.

Recommendation 10: Strengthen the process for ensuring that USMS vehicles are needed
and used to meet mission requirements by:

       monitoring the Training Division implementation of fleet reduction activities to
       ensure that vehicles that are not needed to meet mission requirements are disposed
       of; and

       establishing procedures to ensure that vehicle purchases made directly by the USMS
       instead of through the General Services Administration are supported by waivers
       from the General Services Administration.

Response (Concur): TO has taken steps to ensure that vehicles assigned to the Oivision are used
in support of mission requirements and continues to adhere to the proposed reduction plan
submitted in 2011. This has included developing a vehicle plan that was submitted to the
Management Support Division (MSO) and is referenced in the OIG audit report. As of this date,
TO has excessed/transferred out 9 vehicles and will transfer out an additional 8 for a total of 17
vehicles excessed, leaving the TO with 28 vehicles in inventory. TO will excess the remaining
vehicles, with MSO's assistance in determining locations where vehicles are most needed. TO
ceased all home-to-work vehicle usage, except for the provisions of the vehicle reduction plan, in
early 2012. TO management is in the process of developing internal controls for the
management and use of USMS/TD property that will include government-owned vehicles. This
plan will outline the appropriate use of the vehicles in accordance with USMS policy.

MSO recently provided guidance to all USMS districts and divisions stating that all vehicle
purchases must be made by the Office of Fleet Management (OFM), MSO (Attachment H).
This will ensure that all vehicles purchased are: 1) in line with the USMS vehicle allocation
formula and 2) procured through GSA's Autochoice database. In the rare instance in which a
vehicle purchase is required using the Express Desk (a method used to purchase vehicles on
short notice), OFM will ensure a waiver is received from GSA based on specific justification for
the purchase.

Recommendation 11: Develop a strategic sourcing information exchange identifying
agency excess supplies, best value sources, agency blanket purchase agreements, and other
government-wide strategic sourcing options available for use by procurement officials.




                                                55 

Response (Concur): There have been several efforts in the recent past to enhance contract
offerings. For example, GSA implemented a mandatory office supply Blanket Purchase
Agreement program, and OOP established other strategic sourcing vehicles such as, BP As for
wireless equipment and services, leased vehicles, law enforcement equipment, copiers, mail
services, and administrative support. In FY 2013, the Office of Procurement will make this
consolidated information available to procurement officials on its new Share Point website, as
well as incorporate this information into the training curriculum being developed for USMS­
specific procurement training.

Recommendation 12: Implement a comprehensive strategy for managing USMS
acquisitions across the organization using information gathered from tbe procurement
study completed in FY 2012, along with information gathered during the district office
study continuing in FY 2013.

Response (Concur): The Office of Procurement has been working with Grant Thornton to
gather information by holding specitlc, pointed discussions with various district offices from
across the country (a mix of small, medium, and large offices). These efforts have been
undertaken to gather information about how district offices handle their procurement actions,
how and what challenges and obstacles impact their ability to be successful, and what feedback
and suggestions they have for improvement going forward. At this time, a substantial number of
district offices have participated in Lync conference calls with the Deputy Assistant Director for
Acquisition and Procurement and representatives from Grant Thornton. Going forward, a survey
tool has been developed to reach out to the remaining district offices for their input, which will
then be compiled by Grant Thornton to provide specific data about workload, challenges, and
trends that will be used to develop a formalized plan with specific target and milestone dates.
Next steps will include in-depth review and discussions with Headquarters divisions to learn
more about their contracting needs and how to provide greater support. The Office of
Procurement plans a three-pronged approach, to include 1) updating and creating needed
infrastructure (e.g., training programs, updated policy directives, etc.), 2) developing and
formalizing a plan for district office support, and 3) developing and formalizing a plan for
Headquarters divisional support.




                                                56 

                                                                APPENDIX V

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS


                NECESSARY TO CLOSE THE REPORT




      The OIG provided a draft of this audit report to the United States
Marshals Service (USMS). The USMS response is incorporated in
Appendix IV of this final report. In attachments to its response, the USMS
provided policy and guidance documents and other correspondence in
support of statements made in the response. Because of the length of the
USMS’s attachments, we did not include those in Appendix IV. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

1.   	Resolved. The USMS concurred with our recommendation to
     re-emphasize to all USMS procurement staff the policies and procedures
     that must be followed in the areas of:

         		 advance approval of purchases,

         		 certification of availability of funds,

         		 maintenance of receiving documents,

         		 justification for non-competitive awards,

         		 reconciliation of monthly purchase card and fleet card
             statements,

         		 recording accountable property purchased in the property
             records, and

         		 strategic sourcing.

     The USMS stated in its response that it is revising all policy directives
     associated with procurement rules and guidelines for the USMS. In
     October 2012, the Office of Procurement issued new Policy Directive
     6.8, GSA Smartpay2 Commercial Credit Card Program. Training
     programs are being developed for implementation during FY 2013 to
                                      57 

     emphasize these important issues and highlight other areas of
     concentration to the procurement community to include small business
     procurements and procedures for appropriate technical evaluations.
     The USMS also stated its belief that integration of the Unified Financial
     Management System will help ensure that appropriate procurement
     procedures are followed.

     This recommendation can be closed when we receive documentation
     showing that the revisions to policy directives are completed and that
     the training programs are fully developed and implemented to
     emphasize the policies and procedures that must be followed in the
     areas described above.

2.   	Resolved. The USMS concurred with our recommendation to
     strengthen the oversight of procurement training by:

         		 developing a tracking system to monitor the training completion
             of all procurement staff including Contracting Officers, purchase
             and fleet cardholders, and approving officials; and

         		 establishing procedures to ensure that procurement staff
             complete all required training and that all procurement related
             training is reported for inclusion in the training tracking system.

     The USMS stated in its response that the Office of Procurement has
     updated its previous monitoring system to track all procurement officials
     within the USMS and their associated training. All Contracting Officers
     were contacted in September 2012 to verify their registration status in
     the Federal Acquisition Institute Training Application System (FAITAS).
     The USMS stated that in the future, FAITAS will provide automated
     reminders to registrants about their training requirements, and agency
     Acquisition Career Managers will have user search and lookup capability
     to provide assistance in managing the system. In May and June 2012,
     the Assistant Director of the Financial Services Division issued a
     memorandum requiring that all procurement officials complete 80 hours
     of continuing education no later than September 30, 2013, and advising
     that warrants would be revoked if the training was not completed. The
     memorandum also established the recurring 2-year window for training.
     The USMS stated that the Office of Procurement continues to
     periodically send out reminders to warrant holders of their training
     requirements and due dates.



                                       58 

     For purchase and fleet cards, the USMS stated that the Office of
     Procurement has taken a proactive approach for reviewing and
     assigning approving officials and purchase card holders. New approving
     official assignment letters were issued to all approving officials and the
     new Policy Directive 6.8, GSA Smartpay2 Commercial Credit Card
     Program, was implemented and disseminated to all USMS employees.
     The policy specifies the annual training requirements for the use and
     appropriate management of purchase and fleet cards.

     This recommendation can be closed when we receive documentation of
     the policy describing the tracking system for monitoring the training
     status of procurement officials and documentation showing the tracking
     system is being effectively used to ensure that procurement staff
     complete all required training.

3.   	Resolved. The USMS concurred with our recommendation to
     strengthen the inspection system over procurement activities by the
     Office of Inspection - Compliance Review by:

         		 ensuring a shorter and consistent cycle for reviewing
             procurement operations in the district and division offices;

         		 ensuring the work plan for performing compliance reviews
             considers the risks of non-compliance, as well as top
             management concerns, to focus review resources; and

         		 establishing a process in the Office of Inspection - Compliance
             Review for following up on deficiencies identified during its
             reviews to ensure that corrective actions are implemented to
             resolve the deficiencies.

     The USMS stated in its response that the USMS Office of Inspection has
     promulgated a plan to increase the number of inspections from 11 in
     FY 2012 to 18 in FY 2013. Resources permitting, the Office of
     Inspection plans to increase the number of inspections to 27 in FY 2014.
     In order to develop a risk-based compliance review program, the
     Office of Inspection engaged the services of an accounting firm in
     FY 2012 to conduct a risk assessment and make recommendations to
     incorporate risk into the compliance review program. The USMS also
     believes the risk assessment is essential to establish a follow-up process
     and ensure that corrective action is implemented in a timely manner
     after each review.


                                      59 

     This recommendation can be closed when we receive documentation of
     the policy for incorporating risk assessments in the determination of the
     annual work plan for the Office of Inspection - Compliance Review and
     the policy describing the process to be used to follow up on deficiencies
     identified during reviews to ensure that corrective action is implemented
     in a timely manner after each review.

4.   	Resolved. The USMS concurred with our recommendation to
     strengthen the process for approving and certifying procurement
     requests by:

         		 instructing approving and certifying officials that the use of
             rubber stamps for signatures for documenting approvals and
             certifications is not appropriate; and

         		 clarifying the appropriate use of any blanket approvals for
             investigators in remote locations, working on weekends and
             holidays with immediate needs.

     The USMS stated in its response that the practice of using rubber
     stamps has ceased. The implementation of the Unified Financial
     Management System will ensure that the process for approving and
     certifying procurement requests is completed appropriately. The USMS
     stated that as the policy directives are updated and finalized, strong
     language prohibiting the use of rubber stamps will be included, and will
     also be highlighted on the Office of Procurement Share Point website.

     In its response, the USMS also stated that the Federal Acquisition
     Regulation 13.101(b)(4) encourages the use of bulk funding to the
     maximum extent practicable. This provides for lump sum funds to be
     reserved for a special purpose (such as Technical Operations Group
     events) rather than obtaining individual obligational authority for each
     purchase transaction. Clarification on the applicability and procedures
     for use of blanket purchase card funding will be incorporated into the
     policy directive updates and training materials to provide better
     guidance to the USMS procurement community, and will be highlighted
     on the Office of Procurement Share Point website.

     This recommendation can be closed when we receive:

         		 documentation of the policies prohibiting the use of rubber
             stamps, and


                                      60 

         		 documentation of the updated policies and training materials
             clarifying the applicability and procedures for the use of blanket
             funding approval.

5.   	Resolved. The USMS concurred with our recommendation to clarify the
     requirement for specific identification of the items to be purchased and
     the impropriety of establishing pre-paid accounts with vendors for ease
     of future purchases.

     The USMS stated in its response that stronger guidance will be
     incorporated into the policy directive updates and training curriculum to
     be completed in FY 2013, and will be highlighted on the Office of
     Procurement Share Point website.

     This recommendation can be closed when we receive documentation of
     the updated policies and training materials regarding the requirement
     for specific identification of items to be purchased and the impropriety of
     establishing pre-paid accounts with vendors.

6.   	Resolved. The USMS concurred with our recommendation to establish
     policy on the proper methods and procedures for contracting with hotels
     for conferences and training facilities to include the use of the proper
     forms, adequate procurement planning to minimize cancellation and
     attrition fees, and the use of required Federal Acquisition Regulation
     clauses regarding terminations and contingencies.

     The USMS stated in its response that in August 2012, the USMS Deputy
     Director issued implementing guidance on DOJ Policy Statement
     1400.01, Planning, Approving, Attending and Reporting Conferences. In
     September 2012, in conjunction with the Office of General Counsel, the
     Financial Services Division issued a memorandum providing guidance on
     "no cost agreements" for lodging and use of hotel planners. The USMS
     stated that it will incorporate this guidance into the policy directive
     updates and training curriculum in FY 2013, as well as highlight it on the
     Office of Procurement Share Point website.

     This recommendation can be closed when we receive documentation of
     the updated policies and training materials regarding methods and
     procedures for contracting with hotels for conferences and training
     facilities.




                                      61 

7.   	Resolved. The USMS concurred with our recommendation to ensure
     that the requirements for long-term lodging for visiting class advisors
     are consolidated where practical and that the requirements are
     competed among qualified vendors.

     The USMS stated in its response that the Training Academy is currently
     working with the Financial Services Division to review current
     procedures and practices. New internal controls are being developed to
     ensure compliance with regulations and policies. The Training Division
     has received guidance from the Financial Services Division to not enter
     into long-term housing contracts. The USMS stated that instead,
     travelers will be responsible for making their own travel plans utilizing
     government travel cards in compliance with the Federal Travel
     Regulations.

     This recommendation can be closed when we receive documentation of
     the updated internal controls and related policies regarding lodging for
     visiting class advisors.

8.   	Resolved. The USMS concurred with our recommendation to
     strengthen the process for purchasing firearms by:

         		 establishing a policy for communicating delivery schedules for
             firearms purchases with the districts that ordered the firearms
             and a requirement for the districts to provide evidence of receipt
             of the firearms to the procurement official;

         		 ensuring that the new firearms purchase approval procedures
             planned by the Training Division are formalized in a written
             policy; and

         		 re-emphasizing to appropriate USMS procurement officials the
             USMS policy requirements for justifying the purchase of new
             firearms, proper review of available excess firearms within the
             USMS prior to purchases of new firearms, proper approvals for
             the purchase of firearms, and adequate competition in the
             procurement of firearms.

     The USMS stated in its response that the Training Academy has
     established internal controls to include a review process requiring
     signatures from the agency armorer and Deputy Assistant Director,
     Training Division, for every requested firearms purchase. Additionally,
     the USMS stated that Training Division management has developed a

                                      62 

     tracking tool for all purchases and has communicated the requirement
     for individual offices to ensure proof of receipt is provided to the
     Training Division. The USMS stated that the new internal controls will
     be formalized into policy as appropriate. Procedures to ensure current
     agency policy is adhered to will be developed and distributed
     agency-wide.

     This recommendation can be closed when we receive documentation of:

         		 the policy describing the tracking tool used for managing
             purchases and the requirement for districts to provide evidence
             of receipt of the firearms to the procurement official;

         		 the newly established internal controls requiring approval by the
             agency armorer and the Deputy Assistant Director of the
             Training Division for all new firearms purchases; and

         		 the distribution of procedures re-emphasizing the USMS policy
             requirements for justifying the purchase of new firearms, proper
             review of available excess firearms within the USMS prior to
             purchases of new firearms, proper approvals for the purchase of
             firearms, and adequate competition in the procurement of
             firearms.

9.   	Resolved. The USMS concurred with our recommendation to ensure
     that the two fully-automatic firearms purchased in violation of USMS
     policy have been converted to an appropriate trigger group that does
     not allow fully-automatic fire.

     The USMS stated in its response that the weapons were converted from
     fully-automatic to the appropriate trigger group. The USMS provided
     communications showing that the matter was being addressed and a
     photo of the converted weapons. The USMS requested that OIG close
     this recommendation.

     We were unable to verify the conversion of the two weapons from the
     information provided because it did not include: (1) purchase and
     receipt documentation confirming the serial numbers of the two fully-
     automatic firearms purchased; (2) documentation, such as a completed
     work order, showing that the correct trigger conversion was performed;
     and (3) documentation showing that actions were taken to properly
     dispose of the unallowable trigger parts removed from the fully-
     automatic firearms. This recommendation can be closed when we

                                      63 

    receive documentation of the: (1) invoice and receiving reports
    showing the serial numbers for the two fully-automatic firearms
    purchased, (2) completed work order showing conversion of these two
    fully-automatic firearms to the correct trigger group, and (3) disposition
    of the fully automatic trigger mechanisms.

10. Resolved.		 The USMS concurred with our recommendation to
    strengthen the process for ensuring that USMS vehicles are needed and
    used to meet mission requirements by:

        		 monitoring the Training Division implementation of fleet
            reduction activities to ensure that vehicles that are not needed
            to meet mission requirements are disposed of; and

        		 establishing procedures to ensure that vehicle purchases made
            directly by the USMS instead of through the General Services
            Administration are supported by waivers from the General
            Services Administration.

    The USMS stated in its response that the Training Division has taken
    steps to ensure that vehicles assigned to the division are used in
    support of mission requirements and continue to adhere to the proposed
    reduction plan submitted in 2011. The USMS stated that the Training
    Division has excessed 9 vehicles and will excess an additional 8 for a
    total of 17 vehicles, leaving 28 vehicles in inventory. Training Division
    management is in the process of developing internal controls for the
    management and use of USMS property that will include government-
    owned vehicles. In its response, the USMS also stated that the
    Management Support Division recently issued guidance to all USMS
    districts and divisions stating that all vehicle purchases must be made
    by the Office of Fleet Management. This will ensure that all vehicles
    purchased are: (1) in line with the USMS vehicle allocation formula, and
    (2) procured through General Services Administration’s Autochoice
    database. The USMS provided documentation of the guidance with its
    response. The USMS also stated that when a vehicle is required to be
    purchased outside of normal General Services Administration channels,
    the Office of Fleet Management will ensure a waiver is received from the
    General Services Administration based on specific justification for the
    purchase.

    This recommendation can be closed when we receive documentation
    that the Training Division has completed its fleet reduction plan, and
    documentation showing the Office of Fleet Management policies and

                                     64 

    procedures addressing the use of waivers from the General Services
    Administration in the acquisition of vehicles.

11. Resolved.		 The USMS concurred with our recommendation to develop a
    strategic sourcing information exchange identifying agency excess
    supplies, best value sources, agency blanket purchase agreements, and
    other government-wide strategic sourcing options available for use by
    procurement officials.

    The USMS stated in its response that there have been several efforts in
    the recent past to enhance contract offerings. For example, the General
    Services Administration implemented a mandatory office supply Blanket
    Purchase Agreement program, and the Office of Procurement
    established other strategic sourcing vehicles such as, Blanket Purchase
    Agreements for wireless equipment and services, leased vehicles, law
    enforcement equipment, copiers, mail services, and administrative
    support. In FY 2013, the Office of Procurement will make this
    consolidated information available to procurement officials on its new
    Share Point website, as well as incorporate this information into the
    training curriculum being developed for USMS specific procurement
    training.

    This recommendation can be closed when we receive documentation of
    the strategic sourcing information exchange on the Share Point website
    and the training curriculum for procurement training.

12. Resolved.		 The USMS concurred with our recommendation to
    implement a comprehensive strategy for managing USMS acquisitions
    across the organization using information gathered from the
    procurement study completed in FY 2012, along with information
    gathered during the district office study continuing in FY 2013.

    The USMS stated in its response that the Office of Procurement has
    been working with a contractor to gather information about how district
    offices handle procurement actions, how and what challenges and
    obstacles impact the district offices’ ability to be successful, and what
    feedback and suggestions the district offices have for improvement
    going forward. The contractor will compile specific data about workload,
    challenges, and trends that will be used to develop a formalized plan
    with specific target and milestone dates. The Office of Procurement
    plans a three-pronged approach, to include: (1) updating and creating
    needed infrastructure including training programs and updated policy;
    (2) developing and formalizing a plan for district office support; and

                                     65 

(3) developing and formalizing a plan for Headquarters divisional
support.

This recommendation can be closed when we receive documentation of
the USMS strategy for managing acquisitions across the organization
including the infrastructure design and plans for district and division
office procurement support resulting from the study of workload,
challenges, and trends.




                                66 

